^Preme Court, US'.
FILED

PETITION FOR CERTIORARI
From 4th Circuit Court of Appeals, Case #19-1409

FES 2 5 2021
°S£iOFTHE_CLERK

Originally filed in North Carolina Federal District Court, Case #2:16-cv-00061-FL
SUSAN W. VAUGHAN

v
Individuals: SHANNON FOLTZ, SAMANTHA HURD, KRISTEN HARRIS, KATHLYN
ROMM, RAY MATUSKO, STEPHANIE RYDER, CHUCK LYCETT, MELANIE CORPREW,
JAY BURRUS, MELISSA TURNAGE, KATHERINE MCCARRON, OFFICER MIKE
SUDDUTH, OFFICER CARL WHITE, DOUG DOUGHTIE

Susan W
613 Fifth Avenue, Apt. 1
Greensboro, N.C. 27405
wellsvaughan@gmail.com
Revised and Resubmitted April 15, 2021

IV. RULE 14: 1(a) QUESTIONS
1. Is Troxel v Granville correctly applied to a case that has nothing to do with grandparents'
visitation requests, but is used, nevertheless, as grounds to deny a custodial, in loco
parentis grandmother's constitutional right of familial association?
2. Should violations of state statutes that mirror federal laws and were enacted specifically
to protect U.S. Constitutional Due Process rights be dismissed, just because they involve
state laws?

3. Is it unconstitutional to limit liberty deprivations caused by harm to a person's
reputation only to deprivations that are employment-related?
4. When government agents; through false allegations, along with due process and other
violations, damage a citizen's reputation and then, themselves, use the court-recorded
defamations they create to further deprive that person of constitutionally protected
liberties, should they be exempt from liability just because they didn't widely publicize
the stigmatizing records they created?
5. Is procuring an order, alone, sufficient authority for social workers to invade an
individual's privacy if it doesn't meet the first requirement of the Fourth Amendment
protection, i.e. the right to protection against unreasonable searches and seizures?"

6. Should immunity protections extend to social services agents whenever they fabricate
evidence and/or violate procedural due process and other clearly established state and
federal laws enacted to protect constitutional rights—even when performing ministerial
duties?
7. Should a sheriff who unlawfully interferes with the delivery of legally subpoenaed
documents be blanketly protected from a civil rights lawsuit?
8. Should police officers who forcibly enter a home, without any semblance of a warrant or
order, be protected from liability just because Plaintiff was unable to initially procure
the officers' names, using Officer Doe 1, etc, in the initial filing?

ii

V. RULE 14 l.(b) i LIST OF PARTIES
See Caption. And defendants listed in original filing as follows:
SUSAN W. VAUGHAN, an individual, Plaintiff - Appellant,
v.
SHANNON FOLTZ, an individual; SAMANTHA HURD, an individual; KRISTEN HARRIS, an
individual;
KATHLYN ROMM, an individual; RAY MATUSKO; STEPHANIE RYDER, an individual; CHUCK LYCETT,
an individual; MELANIE CORPREW, an individual; JAY BURRUS, an individual; OFFICER DOE, an
individual; DOES 3-10; MELISSA TURNAGE; KATHERINE MCCARRON; OFFICER MIKE SUDDUTH;
OFFICER CARL WHITE; DOUG DOUGHTIE, an individual, Defendants - Appellees, and HON.
ROBERT TRIVETTE, an individual; MEADER HARRISS, an individual; HON. AMBER DAVIS, an
individual; COURTNEY HULL, an individual; ASST. DIST. ATTORNEY EULA REID, an individual; DARE
COUNTY; CURRITUCK COUNTY; KILL DEVIL HILLS; SUSAN HARMON-SCOTT, an individual;
MERLEE AUSTIN, an individual, Defendants.

V. RULE 14, 1. (b) ii CORPORATE DISCLOSURE STATEMENT
Not applicable

V. RULE 14, 1. (b) iii LIST OF CASES
•
•
•

Vaughan v Foltz, et al., No. 2:16-cv-61-FL, U.S. District Court for the Eastern District of North
Carolina at New Bern. Judgment entered March 19, 2019
Vaughan v Foltz, et al., No. 19-1409, U.S. Court of Appeals for the Fourth Circuit. Judgment
entered Oct. 9, 2020.
Vaughan v Foltz, etal., No. 19-1309. U.S. Court of Appeals for the Fourth Circuit. Judgment on
Petition for Rehearing and Rehearing en Banc. Judgment entered Nov. 23, 2020

Source ECF
https://ecf.ca4.uscourts.gov/n/beam/servlet/TransportRoom?servlet=CaseSummarv.isp&caseNum=191409&incQrigDkt=Y&incDktEntries=Y

iii '

VI. RULE 14, 1. (c)

TABLE OF CONTENTS
Questions
i

List of Parties
Corporate Disclosure Statement
List of Cases
Table of Contents

v

Index of Appendices

v

Table of Cited Authorities

v

Cases

vii

Other Authorities

xiv

Laws

Appendix : Rule 14.1 (f)

Reports of Opinion

1

Basis for Jurisdiction

1

Constitutional Provisions

Appendix : Rule 14.1 (f)

Statutory Provisions

Appendix : Rule 14.1 (f)

Abbreviations

2

Statement of the Case: Concise Summary

2

Compelling Reasons

3

Background

9

Arguments-Errors Related to Questions

26

Question 1

26

Clarification of Legal Issue

28

Question 2

30

Question 3

35

Question 4

35

Question 5

37

Question 6

38

Question 7

39

Question 8

39

Other Errors

39

CONCLUSION

40

iv

INDEX OF APPENDICES
Appendix A: U.S. Court of Appeals for the Fourth Circuit: Vaughan v Foltz, et al.
Case No. 9-1409, Opinion, 10/20/20
Appendix A: U.S. District Court, Eastern North Carolina: Vaughan v Foltz, et al.
Case No. 2:16-cv-61-FL, Opinion 3/19/19
Appendix A: U.S. District Court, Eastern North Carolina: Vaughan v Foltz, et al.
Case No. 2:16-cv-61-FL, Magistrate Swank Recommendations, 05/08/17
Appendix A: U.S. District Court, Eastern North Carolina: Vaughan v Foltz, et al.
Case No. 2:16-cv-61-FL, Magistrate Swank Recommendations, 06/22/17
Appendix A: U.S. Court of Appeals for the Fourth Circuit: Vaughan v Foltz, et al.
Case No. 9-1409, Denial of Rehearing, 11/23/20
Appendix A: U.S. District Court, Eastern North Carolina: Vaughan v Foltz, et al. Case No. 2:16cv-61-FL, ORDER, interlocutory, 10/27/17
Appendix A: U.S. District Court, Eastern North Carolina: Vaughan v Foltz, et al. Case No. 2:16cv-61-FL, TEXT ORDER, M&R, Allowing Leave to Proceed in forma pauperis.
Appendix A: U.S. District Court, Eastern North Carolina: Vaughan v Foltz, et al. Case No. 2:16-cv61-FL, Civil Docket
Appendix D: U.S. Supreme Court, Order List: 589 U.S. Extension of time to file, 3/19/2020
Appendix Rule 13.1(f): CONSTITUTIONAL and STATUTORY PROVISIONS, RULES, LAWS
Appendix Rule 39: Motion for Leave to Proceed in forma pauperis.
Appendix: "Reaction to Triazolam," (Halcion) The Lancet, 9/8/1979; The Therapeutic
Nightmare," excerpt
Appendix extra: Audio recording of 9/23/13 A/N/D "hearing" held in N.C. Court District 1

TABLE OF CITED AUTHORITIES
CASES
Albright. 510 U.S. at 274.114 S. Ct. 807
Bollow v. Federal Reserve Bank.650 F.2d 1093 (9th Cir. 1981)
Carev v. Piphus. 435 U.S. 247. 259 (1978)

vii, 3. 15.16. 20. 27-30. 40
vii. 35

vii. 6.18.22.28. 29.31.36
vii. 7. 18.7.18. 20.23.30.31
Gaubert. 499 U.S. at 322. Ill S. Ct. at 1273 viii. 2. 3. 8. 15. 37-39
Groh v. Ramirez. 540 U.S. 551 (2004) Hardwick v Vreeken, No. 15-55563 D.C. No. 8:13-cv-01390-JLS-AN viii. 8. 37, 39
viii. 2. 3. 19, 26. 29
Hodee v. Jones. 31 F.3d 157,163 (4th Cir. 1994) Hope v. Pelzer. 536 U.S. 730 (2002)
viii. 7. 18. 35. 37, 39 40
Johnson v City of Cincinnati 310 F .3d at 484 (6 Cir. 2002) viii. 1. 2, 3.18,19. 23. 26. 28. 29
Joint Anti-Fascist Refugee Committee v. McGrath, 341 U.S. 123 (1951)

ix. 3, 6. 9.15.17.19. 35. 40

ix. 10 11.13 16. 18. 38
In re McCray NC COA. 2010
ix. 1. 2. 3. 8. 18. 19. 23. 26. 28. 29
Moore v. City of East Cleveland Mullins v. State of Oregon. 57 F.3d 789 (9th Cir.1995)
x.2.3.4. 6. 27, 30
Napue v. Illinois. 360 U.S. 264 (1959) x. 1.2. 3. 8. 18. 19.23.26. 28 30
xi.
1.
2. 3. 8. 18. 19. 23. 26. 28. 29 .35
Rees v. Office of Children and Youth Riccio v. County of Fairfax. 907 F. 2d 1459.146914th Cir. 1990) xi. 30
v

xi. 1. 2. 3. 8. 18,19, 23, 26. 28
Rivera v. Marcus. 696 F.2d 1016 (2d Cir.1982) xii. 29
Ross v Klesius. 715 F. App'x 224. 226 (4th Cir. 2017) Stanley v. Illinois.405 U.S. 645. 651. 92 S.Ct. 1208.1212-13, 31 L.Ed.2d 551 (1972) - xii. 13.15,16 25-27
xii. 18. 20,23. 24. 35, 37.39.40
Taylor v. Rioias U.S. (2020)
_________________________ xii, 3. 19, 26, 27, 29
Troxel v Granville. 30 U.S. 57 (2000)
In Re WBM, 690 S.E.2d 41 (N.C. Ct. Add. 2010) xiii. 4. 6.17. 19. 22. 23. 24. 25. 28. 30. 31. 35 34-37
xiii. 4. 6. 7. 14.17.25-28, 29,30
Wallis v. Spencer. 202 F.3d 1126.1136 (9th Cir. 2000) -________
xiv. 29
Weller v Deo. Of Soc. Services. 901 F. 2d. 387. 392 (4th Cir. 1990) =

OTHER AUTHORITIES
American with Disabilities Act
CAPTA. Assurances and Requirements. Appeals
Child Welfare.gov
Congressional Research Service
Cornell Law School -

xiv. 3.10. 13.17. 21. 27
xiv. 33. 34

xiv. 3. 6.19. 22. 29
xv, 3, 7, 18, 20, 36, 40

xv. 4, 9. 17-20, 23. 25. 29. 32, 33, 34. 36. 37. 39. 40
xvi. 4.15. 17. 22. 25. 28. 29. 31. 33. 34
xvi. 1. 2. 6. 7. 33

Friendly. Henry J. "Some Kind of Hearing"
Justia Law, regarding Due Process
xvii. 3. 27.28
Kimberly A. Swank
xvii. 7. 18. 23. 24. 30. 31
Marsh Law Firm's Child Law Blog
xvii, 3, 20
National Council of Juvenile and Family Court Judges Reno, Nevada
xvii. 19. 28,36. 37
North Carolina Child Welfare Manual for CPS Intake
xvii, 36
North Carolina Division of Social Services. Director Responsibilityxviii. 19. 28. 29. 36. 37
North Carolina Division of Social Services. SCREENING TOOLS- MEDICAL CARE
xix, 28
North Carolina Division of Social Services. SCREENING TOOLS - RISK OF HARM
xix.-l. 22. 33-35
North Carolina Division of Social Services Responsible Individuals List
xix, 8, 9
Redleaf. Diane articles/reports on problems with CPS system
Saint Louis University School of Law II.TPR:The Death Penalty Of Civil Cases
xix, 6. 25. 26
xx, 10
The Therapeutic Nightmare:
xx. 10m 11.12. 20
United State Department of Health. Advisory
xxi.6. 18. 19.20.25. 28.35.36
UNC School of Government (UNC SOG)
Applying UCCJEA Temporary Emergency Jurisdiction in A/N/D Cases
xxi. 8. 9
Wexler, Richard: Due Process Agenda for Children and Families
xxi, 8
Philadelphia creates special committee due to excessive child separations

LAWS, Statutory Provisions [cited in Appendix, Rule 14.1 (f)]
42 U.S.C. $ 1983
Adoption and Safe Families Act of 1997
NCGS 7B-100
NCGS 7B-101 Definitions. Neglect
NCGS 7B-101 (b) -2013. Custodian
NCGS 108A-101 (e) and 104
NCGS 122C-268 (i). inpatient commitment order
NCGS 7B-320. Notification to individual determined to be an Rl
NCGS 7B-323. Petition for judicial review; district court
NCGS 7B-401. 2013
vi

4, 7, 8, 38-40 (entire document)
5

29
19
2. 3, 5, 6. 8,18-21, 26, 27. 29. 31. 33-35
15. 37. 39
11. 38
22-24, 30-32, 34, 35, 39
________ 22-24, 31-34

7.29

3, 4, 6, 17,18, 20, 25, 30, 31, 39, 40
NCGS 7B-402-(b)
________6,
7, 17,18, 25, 28, 29, 35
NCGS 7B-404, 2013
________6, 7, 17,18, 25, 28, 29, 35
NCGS 7B-405. 2013 ___ 6, 18,19, 20, 22, 28, 29, 35, 36
NCGS 7B-406. 2013 _____6, 7, 18,19, 20, 22, 28, 29, 35
NCGS 7B-407 -2013 7. 28
NCGS 7B-500 Article 5. Temporary Custody; Nonsecure Custody; Custody Hearings
NCGS 7B-501 Duties of person taking juvenile into temporary custody. 7.27,28
7. 28
NCGS 7B-502 Authority to issue custody orders; delegation. NCGS 7B-503 Criteria for nonsecure custody
28
.3, 6, 19-23, 36
NCGS 7B-506 (b). Nonsecure Custody Hearing
NCGS 7B-900.1, 2013, Post-Adjudication Venue
19
NCGS 7B-1002. Proper parties for appeal
5. 34
7. 20. 27. 28
28 U.S. Code § 1738A (e) Judiciary and Judicial Procedure UCCJEA The Uniform Child Custody Jurisdiction and Enforcement Act 3. 6. 7. 18. 20. 27. 28. 35
NCGS 50A-106. Effect of child-custody determination
5
5
UCCJEA-102. Definitions
29. 36
NCGS 50A 102. Definitions
UCCJEA 205. NOTICE: OPPORTUNITY TO BE HEARD: JOINDER ______________________ 6, 18, 26, 27, 29
NCGS 50A-205. Notice; opportunity to be heard; joinder
______________________ 6, 18, 26, 27, 29
UCCJEA SECTION 209. Information to be submitted to court _3, 4, 6, 17,18, 20, 22, 25, 29-31 34,39, 40
3, 4, 6, 17, 18, 20, 22, 25, 29-31, 34, 39, 40
NCGS 50A-209. Information to be submitted to court
2. 26
NCGS 50-13.l(bl)

CASES:
Albright, 510 U.S. at 274,114 S. Ct. 807
pp. 3, 6,15,16, 20, 27-30, 40
"Generally, the Fourth Amendment applies to "pretrial deprivations of liberty."

Bollow v. Federal Reserve Bank, 650 F.2d 1093 (9th Cir. 1981) - p. 35
This court has described the stigma that infringes liberty interests as that which "seriously damages a
person's reputation or significantly forecloses his freedom to take advantage of other employment
opportunities " Jablon v. Trustees of California State Colleges, 482 F.2d 997,1000 (9th Cir. 1973)
(emphasis added), cert, denied, 414 U.S. 1163. 94 S. Ct. 926, 39 L. Ed. 2d 116 (1974). Subsequent panels
have set the boundary of liberty interests at accusations of "moral turpitude," such as dishonesty or
immorality i. e., charges that do not reach this level of severity do not infringe constitutional liberty
interests.

Carey v. Piphus. 435 U.S. 247, 259 (1978) pp. 6, 8,18, 22, 28, 29, 31, 33, 36
"[Procedural due process rules are shaped by the risk of error inherent in the truth-finding process as
applied to the generality of cases." Mathews v. Eldridge, 424 U.S. 319, 344 (1976).

Gaubert, 499 U.S. at 322. Ill S. Ct. at 1273 - pp. 7.18. 20, 23, 30, 31
[Regarding discretionary vs ministerial duties]
"If an employee obeys the direction of a mandatory regulation, the Government will be protected
because the action will be deemed in furtherance of the policies which led to the regulation's
vii

promulgation; and if an employee violates a mandatory regulation, there will be no shelter from liability,
because there is no room for choice, and the action will be contrary to policy."

Groh v. Ramirez. 540 U.S. 551 (2004) - pp. 1, 2. 3. 8, 15. 37-39
(b) Petitioner's argument that the search was nonetheless reasonable is rejected. Because the warrant
did not describe the items at all, it was so obviously deficient that the search must be regarded as
warrantless, and thus presumptively unreasonable. This presumptive rule applies to searches whose
only defect is a lack of particularity in the warrant. Petitioner errs in arguing that such searches should
be exempt from the presumption if they otherwise satisfy the particularity requirement's goals. Unless
items in the affidavit are set forth in the warrant, there is no written assurance that the Magistrate
actually found probable cause for a search as broad as the affiant requested.
"Petitioner is not entitled to qualified immunity despite the constitutional violation because "it
would be clear to a reasonable officer that his conduct was unlawful in the situation he confronted,"
Saucier v. Katz, 533 U. S. 194. 202. Given that the particularity requirement is stated in the
Constitution's text, no reasonable officer could believe that a warrant that did not comply with that
requirement was valid.
"[A] warrant may be so facially deficient... that the executing officers cannot reasonably presume it to
be valid." Leon, 468 U. S., at 923. This is such a case. Pp. 11-14."

Hardwick v Vreeken, No. 15-55563 D.C. No. 8:13-cv-01390-JLS-AN - pp. 8, 37, 39
"In this case, the jury specifically concluded that Vreeken and Dwojak lied, falsified evidence
and suppressed exculpatory evidence-all of which was material to the dependency court's
decision to deprive Fogarty-Hardwick of custody-and that they did so with malice. These
findings are clearly sufficient to satisfy the Supreme Court's definition of circumstances in which
'qualified immunity would not be available.'"

Hodge v. Jones, 31 F.3d 157,163 (4th Cir. 1994) - pp. 2, 3,19, 26, 29
"the sanctity of the family unit is a fundamental precept firmly ensconced in the Constitution
and shielded by the Due Process Clause of the Fourteenth Amendment."

Hope v. Pelzer, 536 U.S. 730 (2002) - 7.18. 35-37. 39. 40
"Officers sued in a § 1983 civil action have the same fair notice right as do defendants charged under 18
U. S. C. § 242, which makes it a crime for a state official to act willfully and under color of law to deprive
a person of constitutional rights. This Court's opinion in United States v. Lanier, 520 U. S. 259. a § 242
case, makes clear that officials can be on notice that their conduct violates established law even in novel
factual situations. Indeed, the Court expressly rejected a requirement that previous cases be
"fundamentally similar." Accordingly, the salient question that the Eleventh Circuit should have asked is
whether the state of the law in 1995 gave respondents fair warning that Hope's alleged treatment was
unconstitutional."

Johnson v City of Cincinnati 310 F .3d at 484 (6 Cir. 2002)

pp. i.

2.3.18.19.23.26.28.29

"Holding that a grandparent has a due process right of familial association with her
grandchildren if she participates in child-rearing, for instance as an active participant in the lives and
activities of her grandchildren with the consent and support of the children's mother, even if
the grandmother might not have had a due process right if she had only visited the
grandchildren."
viii

"Moreover, nothing in our tradition or precedent can credibly be read to suggest that
the right to participate in child rearing does not extend to grandparents. See, e.g., Moore, 431
U.S. at 504, 97 S. Ct. 1932 ("Ours is by no means a tradition limited to respect for the bonds
uniting the members of the nuclear family. The tradition of uncles, aunts, cousins, and
especially grandparents sharing a household along with parents and children has roots equally
venerable and equally deserving of constitutional recognition.") (emphasis added) (footnote
omitted)."

Joint Anti-Fascist Refugee Committee v. McGrath. 341 (J.S. 123 (1951) - pp. 3,6,9,
"petitioners were suffering irreparable injury and had no adequate
17,19,15, 35, 40
remedy at law. The District Court granted motions to dismiss the complaints for failure to state
claims upon which relief could be granted. The Court of Appeals affirmed.
"It has long been recognized that "fairness can rarely be obtained by secret, one-sided
determination of facts decisive of rights."
Held: The judgments are reversed, and the cases are remanded to the District Court with
instructions to deny the motions that the complaints be dismissed for failure to state claims
upon which relief could be granted. Pp. 341 U. S. 124-125. 341 U. S. 142.

In re McCray NC COA, 2010 -10, 11,13,16,18, 38
https://appellate.nccourts.org/opinions/?c=2&pdf=6442
"To support an inpatient commitment order, the [trial] court shall find by clear, cogent,
and convincing evidence that the respondent is mentally ill and dangerous to self... or
dangerous to others,...." N.C. Gen. Stat. § 122C-268(j) (2009). In the present case, the trial
court (I) failed to find a reasonable probability that Respondent's dangerous conduct toward
others would be repeated; and, (II) regarding dangerousness to self, failed to find a reasonable
probability of Respondent's suffering serious physical debilitation in the near future. Following
the statutory law of North Carolina, we must reverse the trial court's order recommitting
Respondent for sixty days.
Although there was some evidence that Respondent was resistant to taking her
psychotropic medication, there is no evidence in the record, nor do the trial court's findings
reflect, that Respondent's failure to take such medication would create any probability of
physical debilitation within the near future.

Moore v. City of East Cleveland - pp. 1, 2,3,8, 18,19, 23. 26, 28. 29
431 U.S. 494, 503-04(1977):
"Our decisions establish that the Constitution protects the sanctity of the family
precisely because the institution of the family is deeply rooted in this Nation's history and
tradition. It is through the family that we inculcate and pass down many of our most cherished
values, moral and cultural."
Moore v. City of East Cleveland 431.U.S. 494, 97 S. Ct._1932, 52.L. Ed. 2d_531_(1977)
ix

"Ours is by no means a tradition limited to respect for the bonds uniting the members of
the nuclear family. The tradition of uncles, aunts, cousins, and especially grandparents sharing a
household along with parents and children has roots equally venerable and equally deserving of
constitutional recognition. [ ] Over the years millions of our citizens have grown up in just such
an environment, and most, surely, have profited from it. Even if conditions of modern society
have brought about a decline in extended family households, they have not erased the
accumulated wisdom of civilization, gained over the centuries and honored throughout our
history, that supports a larger conception of the family. Out of choice, necessity, or a sense of
family responsibility, it has been common for close relatives to draw together and participate in
the duties and the satisfactions of a common home. Decisions concerning child rearing, which
Yoder, Meyer, Pierce and other cases have recognized as entitled to constitutional protection,
long have been shared with grandparents or other relatives who occupy the same household—
indeed who may take on major responsibility for the rearing of the children. [ ] Especially in
times of adversity, such as the death of a spouse or economic need, the broader family has
tended to come together for mutual sustenance and to maintain or rebuild a secure home life.
This is apparently what happened here." [cited in Rees, noted below].

Mullins v. State of Oregon, 57 F.3d 789 (9th Cir.1995) - pp. 2, 3, 4, 6, 27, 30
"Here, the court noted, the liberty interest at stake need not be 'fundamental,' since the
procedural component of due process protects "all liberty interests that are derived from state
law or from the Due Process Clause itself.' 57 F.3d at 795."

Napue v. Illinois. 360 U.S. 264 (1959) - pp. 3. 9. 12-19. 21-23. 25. 26. 34. 36. 37, 40
"In cases in which there is a claim of denial of rights under the Federal Constitution, this Court is
not bound by the conclusions of lower courts, but will reexamine the evidentiary basis on which
those conclusions are founded" [emphasis added].
"It is of no consequence that the falsehood bore upon the witness’ credibility rather than
directly upon defendant's guilt. A lie is a lie, no matter [360 U.S. 264, 270] what its subject,
and, if it is in any way relevant to the case, the district attorney has the responsibility and duty
to correct what he knows to be false and elicit the truth.... That the district attorney's silence
was not the result of guile or a desire to prejudice matters little, for its impact was the same,
preventing, as it did, a trial that could in any real sense be termed fair."
It is now so well settled that the Court was able to speak in Kern-Limerick, Inc., v. Scurlock, 347
U.S. 110, 121, of the "long course ofjudicial construction which establishes as a principle that
the duty rests on this Court to decide for itself facts or constructions upon which federal
constitutional issues rest." 4_As previously indicated, our own evaluation of the record here
compels us to hold that the false testimony used by the State in securing the conviction of
petitioner may have had an effect on the outcome of the trial. Accordingly, the judgment below
must be Reversed.
"First, it is established that a conviction obtained through use of false evidence, known to be
such by representatives of the State, must fall under the Fourteenth Amendment, Mooney v.

Holohan, 294 U.S. 103 ; Pyle v. Kansas, 317 U.S. 213 ; Curran v. Delaware, 259 F.2d 707. See
New York ex rel. Whitman v. Wilson, 318 U.S. ««, and White v. Ragen, 324 U.S. 760 . Compare
Jones v.
Commonwealth, 97 F.2d 335, 338, with In re Sawyer's Petition, 229 F.2d 805, 809. Cf. Mesarosh
v. United States, 352 U.S. 1. The same result obtains when the State, although not soliciting
false evidence, allows it to go uncorrected when it appears. Alcorta v. Texas, 355 U.S. 28;
United States ex rel. Thompson v. Dye, 221 F.2d 763; United States ex rel. Almeida v. Baldi, 195
F.2d 815; United States ex rel. Montgomery v. Ragen, 86 F. Supp. 382. See generally
annotation."

Rees v. Office of Children and Youth - pp. 1. 2,3. 8.18.19. 23.26. 28, 29.35
744 F. Supp. 2d 434, 444-52 (W.D. Pa, 2010)
" In the cases which have been decided since Moore, courts addressing the purported due
process rights of grandparents and other extended family members seem to place particular
emphasis on several factors: to wit, whether the plaintiff is a custodial figure or is otherwise acting
in loco parentis to the children; whether and for how long the children were residing with the
plaintiff at the time of the alleged deprivation; whether the plaintiff has a biological link to the
children; and whether there is a potential conflict between the rights of the plaintiff and the rights
or interests of the children's natural parents. Some courts have also considered whether relevant
state law would imbue the plaintiff with certain rights or expectations typically afforded to
parents."
"The Ninth Circuit subsequently revisited the issue of grandparents' substantive due process
rights in Miller v. California, 355_F.3d_1172_(9th Cir.2004).
'"...the Miller court observed that California law affords de facto parents defined as those who,
"on a day-to-day basis, assume[d ] the role of parent, seeking to fulfill both the child's physical
needs and his psychological need for affection and care," id. (citation omitted)' only the right to
be present, to be represented and to present evidence in a dependency proceeding.' Id.
(citation omitted)."'

Riccio v. County of Fairfax, 907 F. 2d 1459, 1469(4th Cir. 1990) - p. 30
"The Due Process Clause regulates the manner in which a state deprives its citizens of interests
in life, liberty, and property. See U.S. Const, amend. XIV, § 1. It is well established that the mere
existence of a state rule does not necessarily create an interest protectable by the Due Process
Clause...., [emphasis added]."
"First, we note that we did not actually find a violation of the state statute
in Kersey. Therefore, we never had to decide what constitutional effect we would have given to
a finding that the statute had been violated."

Rivera v. Marcus, 696 F.2d 1016 (2d Cir.1982) - pp. l, 2.3,8, 18.19, 23. 26. 28
"where the plaintiff was a half-sister to the children in question and had assumed care for them
in her own home at the request of their mentally ill mother and pursuant to a foster care
agreement."
xi

"The court went on to state that 'custodial relatives like Mrs. Rivera are entitled to due process
protections when the state decides to remove a dependent relative from the family
environment; id. at 1025, and, in fact, the court found Mrs. Rivera's situation virtually
indistinguishable from that of the plaintiff grandmother in the Moore case. Citing other relevant
considerations, such as "the expectations of the parties at the time the [foster] relationship was
commenced" and "the age and previous living experience of the children prior to entering the
foster care environment," id., the court found that these factors also weighed strongly in favor
of extending due process protection to the plaintiff, since she had cared for the children almost
from birth, had continued to act as their "surrogate mother" after their natural mother was
institutionalized, and had assumed responsibility for them well before the foster care
agreement was consummated."

Ross v Klesius, 715 F. App'x 224, 226 (4th Cir. 2017) - p. 29
[regarding the removal of foster children legally under DSS custody]
"Holding that even without court order and "[e]ven assuming, without deciding, that
Defendants violated Ross' Fourth Amendment rights, their conduct in entering or directing
others' entry into Ross' home to retrieve her foster children, under the circumstances
presented, did 'not violate clearly established statutory or constitutional rights of which a
reasonable person would have known.'"
[emphasis added -clearly different from plaintiff's case]
Stanley V. Illinois,405 U.S. 645, 651. 92 S.Ct. 1208. 1212-13. 31 L.Ed.2d 551 (19721 - pp. 13,15.16
25-27

(familial integrity shielded by Ninth Amendment and Due Process and Equal Protection Clauses
of Fourteenth Amendment). "The concept of familial privacy has been restricted by the
Supreme Court to (1) thwarting governmental attempts to interfere with particularly intimate
family decisions, and (2) voiding government actions that sever, alter, or otherwise affect the
parent/child relationship."

Taylor v. Rioias U.S. (2020) - pp. 18, 20,23, 24, 35, 37, 39. 40
Rejecting the Circuit Courts granting of qualified immunity.
"Confronted with the particularly egregious facts of this case, any reasonable officer should have
realized that Taylor's conditions of confinement offended the Constitution. We therefore grant Taylor's
petition for a writ of certiorari, vacate the judgment of the Court of Appeals for the Fifth Circuit, and
remand the case for further proceedings consistent with this opinion."

Troxel v Granville, 30 U.S. 57 (2000) - pp. 3,19, 26, 27, 29
"There is a fundamental right under the Fourteenth Amendment for a parent to oversee
the care, custody, and control of a child."

xii

/i

"Petitioners Troxel petitioned for the right to visit their deceased son's daughters. Respondent
Granville, the girls' mother, did not oppose all visitation, but objected to the amount sought by
the Troxels."

In Re WBM, 690 S.E.2d 41 (N.C. Ct. App. 2010) -

pp.

2. 6,17,19, 22. 24, 25. 28.31, 35 34-36

"We conclude that inclusion on the RIL deprives an individual of the liberty interests guaranteed
under our State Constitution by inhibiting the individual from using his faculties to adopt,
foster, and care for children, earning his livelihood in the childcare field, or pursuing or securing
employment in the childcare field."
"It has long been recognized that "fairness can rarely be obtained by secret, one-sided
determination of facts decisive of rights." Joint Anti-Fascist Refugee Comm., 341 U.S. at 170, 95
L. Ed. at 853 (footnote omitted). "The validity and moral authority of a conclusion largely
depend on the mode by which it was reached ... [and no better instrument has been devised
for arriving at truth than to give a person in jeopardy of serious loss notice of the case against
him and opportunity to meet it." Id. at 171-72, 95 L. Ed. at 854.] [emphasis added]
"N.C. Gen. Stat. § 7B-320(c)(3) - pp. 22-24 allows DHHS to provide information from
the RIL "to child caring institutions, child placing agencies, group home facilities, and
other providers of foster care, child care, or adoption services that need to determine
II ft
In re W.B.M
the fitness of individuals to care for or adopt children.
"placement on the RIL carries consequences that are serious to the accused individual. Those
consequences flow in part from the personal stigma undoubtably attached to the accused individual by
persons acquiring the individual's name from the list, even if such acquisition is "exclusively" for a
determination of the individual's "employability or fitness to care for or adopt children." Id. The
consequences also flow from the actions of the designated agencies that may penalize the individual on
the basis of his or her inclusion on the RIL. An individual who is branded as a 'child abuser' as a result of
his or her inclusion on the RIL is "maimed and crippled. The injury is real, immediate, and incalculable'."
re W.B.M, 202 N.C. App. 606, 617 (N.C. Ct. App. 2010)

Wallis v. Spencer. 202 F.3d 1126,1136 (9th Cir. 2000) - pp. 4,6,7,14,17,25-28,29,30
"Parents and children have a well-elaborated constitutional right to live together
without governmental interference. That right is an essential liberty interest protected by the
Fourteenth Amendment's guarantee that parents and children will not be separated by the
state without due process of law except in an emergency."
Over the years, the Supreme Court has recognized this fundamental right in many cases.
For example, in Cleveland Bd. of Educ. v. LaFleur, 414 U.S. 632, 639-40 (1974), the Court said,
"This Court has long recognized that freedom of personal choice in matters of marriage and
family life is one of the liberties protected by the Due Process Clause of the Fourteenth
Amendment." The Court reiterated this theme three years later in Moore v. City of East
Cleveland, 431 U.S. 494, 503-04 (1977): "Our decisions establish that the Constitution protects
the sanctity of the family precisely because the institution of the family is deeply rooted in

xiii

this Nation's history and tradition. It is through the family that we inculcate and pass down
many of our most cherished values, moral and cultural" [emphasis added]

Weller v Pep. Of Soc. Services. 901 F. 2d. 387, 392 (4th Cir. 1990) = p. 29
"Holding that while some procedures are sufficient "when visitation and placement
decisions are at stake, we believe that the greater liberty interest inherent in the custody of
one's child requires something more"

OTHER AUTHORITIES
Americans with Disabilities Act - pp. 3,10,13,17, 21, 27
https://www.ada.gov/doi hhs ta/child welfare ta.html
"Both the HHS Office for Civil Rights (OCR) and DOJ Civil Rights Division have received numerous
complaints of discrimination from individuals with disabilities involved with the child welfare
system, and the frequency of such complaints is rising. In the course of their civil rights
enforcement activities, OCR and DOJ have found that child welfare agencies and courts vary in
the extent to which they have implemented policies, practices, and procedures to prevent
discrimination against parents and prospective parents with disabilities in the child welfare
system."

CAPTA, Assurances and Requirements, Appeals - pp. 33, 34
States are required to have in place an appeals process by which an individual who is officially
found to have committed child abuse or neglect can appeal such a finding. States have some
flexibility in determining the type of appeals process that best meets their needs. For example,
the appeals process can be established through the courts, through some other external appeals
process, or through an internal appeals process.
The appeals process, however, must meet the following minimum conditions in order to satisfy
the CAPTA requirements:
1)
The process must afford the individual with a finding of child abuse or neglect an
opportunity for due process.
2)
The office or individual(s) hearing such appeals cannot be involved in any other stage of
the case.
3)
The office or individual(s) established to hear such appeals must have the authority to
overturn a previous finding of child abuse or neglect.
4)
Individuals must be given written notification of their right to appeal, and the method by
which they may appeal, at the time they are notified of the official finding of child abuse or
neglect.

xiv

CAPTA requires States to establish provisions, procedures and mechanisms by which individuals
who disagree with an official finding of abuse and neglect can appeal such finding. We
understand this provision to apply to the perpetrator; however; individuals with standing under
State law are not precluded from participating in the appeals process should such individuals
disagree with a finding of abuse or neglect.
Pursuant to section 106 (b)(2)(B)(xv)(ll) of the Child Abuse Prevention and Treatment Act
(CAPTA), States must have a process to hear appeals from individuals who disagree with an
official finding of child abuse or neglect. There is nothing in the statutory language or legislative
history that indicates that this requirement is limited to only those States with central registries.
Additionally, in order for an appeals process to be complete, it must include steps to assure that
individuals with such rights receive timely notification.
[Compare to 7B-1002 below -- Proper Parties for Appeal] - p. 35

Child Welfare.gov- pp. 3, 6,19, 22, 29, 30
https://www.childwelfare.gov/pubPDFs/courts 26.pdf
Chapter 4 "The Juvenile Court Process"
"The initial hearing is the most critical stage in the child abuse and neglect court process. Many
important decisions are made and actions taken that chart the course for the remainder of the
proceeding. At this hearing, the relationships between those involved in the process also are
established, and the tone is set for their ongoing interactions. Too often, these hearings are brief and
perfunctory, but to the extent that sufficient time is devoted to them to address the relevant issues
thoroughly, initial hearings facilitate and expedite the resolution of the case.22" [emphasis added].

Congressional Research Service - pp. 3,7.8,18,20,26,40
What Is Qualified Immunity? Qualified immunity is a judicially created legal doctrine that shields
government officials performing discretionary duties from civil liability in cases involving the deprivation
of statutory or constitutional rights. Government officials are entitled to qualified immunity so long as
their actions do not violate "clearly established statutory or constitutional rights of which a reasonable
person would have known." The Supreme Court has observed that qualified immunity balances two
important interests—-"the need to hold public officials accountable when they exercise power
irresponsibly and the need to shield officials from harassment, distraction, and liability when they
perform their duties reasonably."[emphasis added].
The immunity's broad protection is intended for "all but the plainly incompetent or those who knowingly
violate the law" and to give government officials "breathing room" to make reasonable mistakes of fact
and law. According to the Supreme Court, the "driving force" behind qualified immunity was to ensure
that "insubstantial claims" against government officials were resolved at the outset of the lawsuit.
Qualified immunity, when applied, provides immunity not only from civil damages, but from having to
defend liability altogether. Courts apply a two-part analysis when determining whether an official is
entitled to qualified immunity: (1) whether the facts alleged by the plaintiff amount to a constitutional
violation, and (2) if so, whether the constitutional right was "clearly established" at the time of the
misconduct. Recent Supreme Court precedent provides flexibility in applying this standard, granting
courts the discretion to decide which prong to first address in light of the circumstances of the facts of
the case at hand. Whether a right is clearly established depends on whether "the contours of a right are
sufficiently clear" so that every "reasonable official would have understood that what he is doing
xv

violates that right." When conducting this analysis, courts look to see whether it is "beyond debate" that
existing legal precedent establishes the illegality of the conduct."

Cornell Law School - p. 4, 9,17-20, 23, 25, 29, 32, 33, 34, 36, 37, 39, 40
Definition of fraud: Fraud is both a civil tort and criminal wrong.
In civil litigation, allegations of fraud might be based on a misrepresentation of fact that was
either intentional or negligent. For a statement to be an intentional misrepresentation, the
person who made it must either have known the statement was false or been reckless as to its
truth. The speaker must have also intended that the person to whom the statement was made
would rely on it. The hearer must then have reasonably relied on the promise and also been
harmed because of that reliance.

Friendly, Henry J. "Some Kind of Hearing," - pp. 4,15,17, 22, 25, 28, 29,31, 33,34
Owen J. Roberts Memorial Lecture delivered at the University of Pennsylvania Law School on
April 3, 1975.
https://scholarship.law.upenn.edu/cgi/viewcontent.cgi?article=5794&context=penn law review
a list presented by Judge Henry J. Friendly in his lecture delivered to the University of
Pennsylvania Law School in 1975. Friendly describes the list below as:
"... enumerating factors that have been considered to be elements of a fair hearing, roughly in
order of priority, and another that arrays various types of government action that have been urged
to call for a hearing, starting with the most serious. As we go down the second list from the more
severe actions to the less, the needle would point to fewer and fewer requirements on the list of
required safeguards. 68 With the probable exception of Goldberg 69 itself, the Court's decisions
seem to conform to this scheme.

•
•

Friendly's list of the elements of a fair hearing are:
An unbiased tribunal
Notice of the Proposed Action and the Grounds Asserted for It
It is likewise fundamental that notice be given and that it be timely and clearly inform the
individual of the proposed action and the grounds for it. 76 Otherwise the individual likely would
be unable to marshal evidence and prepare his case so as to benefit from any hearing that was
provided.

•
•

An Opportunity to Present Reasons Why the Proposed Action Should Not Be Taken
The Rights to Call Witnesses, To Know the Evidence Against One, and To Have Decision Based
Only on the Evidence Presented

•
•
•
•

Counsel
The Making of a Record and a Statement of Reasons
Public Attendance
Judicial Review

Justia Law, regarding Due Process - pp. 6, 8,18, 22, 28, 29, 31, 33, 36
First, "[procedural due process rules are meant to protect persons not from the deprivation, but
from the mistaken or unjustified deprivation of life, liberty, or property."252 Thus, the required
xvi

elements of due process are those that "minimize substantively unfair or mistaken deprivations"
by enabling persons to contest the basis upon which a state proposes to deprive them of
protected interests.—
Carey v. Piphus, 435 U.S. 247, 259 (1978). "[Procedural due process rules are shaped by the risk of error
inherent in the truth-finding process as applied to the generality of cases." Mathews v. Eldridge, 424 U.S. 319,
344 (1976).

Kimberly A. Swank - pp. 3, 27, 28
United States Magistrate Judge, Memorandum & Recommendation, re: Vaughan v. Foltz
"...Plaintiff's criticism of the reliance on Troxel in the M&R is duly noted and her interpretation
of that case is not unique." Citing "Michelle Ognibene, Comment, A Constitutional Analysis of
Grandparents' Custody Rights, 72 U. Chi. L. Rev. 1473,1486-87) ('Troxel...did not address the
possibility that grandparents might possess a fundamental interest in their grandchildren that
does not conflict with the parents' wishes, or that the grandparent might effectively stand in
the shoes of the parent through an established caregiving relationship with the parent's
consent.'"..... The question that plaintiff presents is whether these rights are extended to
grandparents in situations where the grandparent plays an important role in the care and
Indeed the case
upbringing of the child
law in this area is unsettled and there appears to be no instructive Fourth Circuit opinion. See
Rees v. Office of Children and Youth, 744 F. Supp. 2d 434-52 (W.D. Pa. 2010) (surveying in
extreme detail First, Third, Sixth, Seventh, Ninth, and Tenth Circuit case law addressing the due
process rights of grandparents)

Most Helpful is the Rees Court's analysis...." [see Rees

cited above.]

Marsh Law Firm's Child Law Blog - p. i, 18,23,24,30.31
"Ministerial versus Discretionary Acts or Omissions in Child Welfare Litigation"
"Courts have found that" [a] duty is discretionary if the government actor is required to exercise
his or her judgment or discretion in performing the duty." On the other hand, 'a duty is
ministerial and not discretionary if it is imposed by law and its performance is not dependent on
the employee's judgment."
The Supreme Court of the United States explained that "[tjhe requirement ofjudgment or choice
is not satisfied if a 'federal statute, regulation, or policy specifically prescribes a course of action
for an employee to follow,' because 'the employee has no rightful option but to adhere to the
directive.'" In assessing whether a function is discretionary or ministerial, courts generally
conduct a case-by-case determination, weighing "such factors as the nature of the official's
duties, the extent to which the acts involve policymaking or the exercise of professional
expertise and judgment, "[emphasis added].

National Council of Juvenile and Family Court Judges Reno, Nevada - pp 3, 20
Honorable David E. Grossmann, Chairman Spring 1995

xvii

" The preliminary protective hearing occurs either immediately before or immediately after a child is
Unfortunately, many social service agencies believe it
removed from home in an emergency,
is safer to remove the child as a preventive measure and return the child to the family only after a full
investigation is completed. This perspective ignores the great risk of out-of-home placements, the
disruption such placements cause to the child and the family, and the emotional and fiscal costs involved
in placing children.
A primary goal of the court should be to make the preliminary protective hearing as thorough and
meaningful as possible. The court should conduct an in-depth inquiry concerning the circumstances of
the case. It should hear from all interested persons present. As part of its inquiry, the court should
evaluate whether the need for immediate placement of the child could be eliminated by providing
additional services or by implementing court orders concerning the conduct of the child's caretaker. If
the court determines that the child needs to be placed, the court must evaluate the appropriateness of
the placement proposed by the agency and seek the least disruptive alternative that can meet the needs
of the child. For example, the court should explore whether the needs of the child could be met in the
home of a relative. Whether or not the court decides at the preliminary protective hearing that a child
can safely go home, the court must determine whether the agency has made reasonable efforts to
preserve the family. Courts should insist that adequate services are delivered to prevent the need for
placement, and make certain that decisions to remove children from their homes are made prudently
and after full consideration of less disruptive alternatives [emphasis added].

North Carolina Child Welfare Manual for CPS Intake - pp. 19, 28, 36, 37
CPS Assessments, In-Home, & Permanency Planning p 4 "The screening process requires
knowledge of the statutory definitions of child abuse, neglect, dependency, and caretaker. The
county child welfare services agency has the authority to intervene only when the allegation, if
true, would meet the legal definitions. Reports accepted for CPS Assessment must clearly invoke
[emphasis added].
the statutory authority to provide Child Protective Services."
https://policies.ncdhhs.gov/divisional/social-services/child-welfare/policymanuals/modifiedmanual-l/cps-intake.pdf

North Carolina Division of Social Services - pp. 36
Family Services Manual Volume I: Children's Services Chapter VIII: Child Protective Services (p. 2
top)
"In the course of providing child protective services, the director of the county DSS and staff
should have a clear understanding of the legal basis for intervention on an involuntary basis and
to accept the responsibility for offering services to non-voluntary clients. The agency should
minimize the intrusion into the family without increasing the risk of harm for children" [emphasis
https://www.dconc.gov/home/showdocument?id=13295
added].

North Carolina Division of Social Services
SCREENING TOOLS- Neglect -MEDICAL CARE - pp. 19, 28, 29, 36, 37
Family Services Manual Volume I: Children's Services Chapter VIII: Child Protective Services
https://www.dconc.gov/home/showdocument?id=13295
Improper Medical and Remedial Care Screening Tool Directions (p. 57)
xviii

"Failure to provide child with immunizations or routine well childcare in and of itself
does not constitute neglect. A parental decision not to provide a child with behavior
modification medication in and of itself does not constitute neglect..... In situations where a
teenager is refusing to keep appointments with a therapist and the parent/caretaker is making
every effort to encourage the child to keep the appointment and is arranging transportation for
the child, there is not sufficient information to proceed with a CPS assessment."

North Carolina Division of Social Services
SCREENING TOOLS - RISK OF HARM - p. 28
Family Services Manual Volume I: Children's Services Chapter VIII: Child Protective Services
https://www.dconc.gov/home/showdocument?id=13295
Injurious Environment Screening Tool Directions (p. 59)
[note DSS CPS alleged but noted none of the related conditions found on this page of the
manual]
Are there structural issues with the family's living environment, which place the child's health or
safety at risk?............................
Is the child's living environment hazardous or immediately threatening?
Flousekeeping/cleanliness issues addressed through CPS are those that impact the child's health
or safety. Simply having a dirty house does not indicate an injurious environment, the living
conditions have to be such that they are not safe for a
child....................................................................
Are criminal elements endorsed by the parent/caretaker that place the child's health or safety
at risk?.............................................................................................................

North Carolina Division of Social Services - p. 32-35
Child Welfare Services Volume I: Children's Services, Chapter VIII: Child Protective Services
Responsible Individuals List, I INTRODUCTION pp. 22, 34
[Plaintiff exhibit 47]
The development of the Responsible Individuals List (RIL) is a direct result of federal
requirements und the Child Abuse Prevention and Treatment Act (CAPTA). Section 106 (a). The
CAPTA grant requires each state to establish procedures for individuals found to have abused or
neglected a juvenile to appeal that decision. Non-compliance with this requirement directly
affects the receipt of CAPTA funds, [emphasis added].
The policy outlines procedures regarding notice to an alleged responsible individual and the
procedures for a judicial review of the county child welfare agency's decision to substantiate
abuse/and or serious neglect and identify the individual as a responsible individual.

REDLEAF, DIANE pp. 8,9
"Children Parents and Child Protective Services," Nov. 2018
https://www.cato-unbound.org/print-issue/2424 and "After the Hotline Call," 1/27/19
https://www.theatlantic.com/ideas/archive/2019/01/problem-child-protective-services/580771/

xix

SAINT LOUIS UNIVERSITY SCHOOL OF LAW pp. 6, 26
346 SAINT LOUIS UNIVERSITY PUBLIC LAW REVIEW [Vol. XXIX:341
https://scholarship.law.slu.edu/cgi/viewcontent.cgi?article=1186&context=plr
II. TPR: THE DEATH PENALTY OF CIVIL CASES
"Termination of Parental Rights (TPR) is the death penalty of civil cases.13 Once a parent's rights
to his or her child are terminated, that parent's right to care for, visit, or make decisions for the
child are gone forever: the legal parent-child relationship has ended. 14 The parent cannot seek a
modification of the permanent custody order after his or her rights have been terminated.15 The
child can immediately be put up for adoption and a biological parent may never see their child
again.16 Parents have a fundamental constitutional right to raise and make decisions for their
children under the Due Process Clause of the Fourteenth Amendment.17 The United States
Supreme Court has stated that "it is cardinal with us that the custody, care and nurture of the
child reside first in the parents, whose primary function and freedom include preparation for
obligations the state can neither supply nor hinder."i8 Establishing a home and raising children
are "among the most basic civil rights, long recognized as essential to the orderly pursuit of
happiness."19
"TPR is a clear intrusion into a parent's fundamental liberty interest in raising children without
state interference,20 yet caselaw and journal articles are littered with examples of how fear and
stereotypes about the disabled have affected their rights to bear and parent children.21 Even
Congress, in passing the Americans with Disabilities Act, recognized that "individuals with
disabilities . . . have been faced with restrictions and limitations [and] subjected to a history of
purposeful unequal treatment. . . based on characteristics that are beyond [their] control . . .
resulting from stereotypic assumptions not truly indicative of the individual ability of such
individuals to participate in, and contribute to, society."22 Today, disproportionately high
numbers of mentally ill individuals are losing their parental rights23 despite the fact that child
abuse and neglect among mentally ill parents is low."

The Therapeutic Nightmare: - p. 10
The Battle Over the World's Most Controversial Sleeping Pill
John Abraham, Professor of Sociology and Co-director of the Centre for Research in Health and
Medicine at the University of Sussex.
Chapter 4, p. 45 [Excerpt appears in Appendix]
"...after taking Halcion [triazolam] for the first time, a physician reported that he suffered from
amnesia, confusion, lack of coordination, bizarre behavior, hallucinations and paranoidschizophrenia. The physician was to perform surgery the next morning but because of his bizarre
behaviour was locked in his house by his girlfriend the next day. However he found a set of keys
and went to work at the hospital. Initially he appeared normal and began surgery, but because
of his bizarre behaviour he was physically removed and replaced by another surgeon. He also
reported that he had multiple recurrences of bizarre behavior and amnesia, without further
exposure to the drug.n [Barry, W.S. (1984) "First report of a physician with professional
incapacitation in association with the use of Halcion tablets," internal Upjohn memo, 26 April."

United State Department of Health, Advisory - pp. 10,11,12, 20
XX

Re; Benzodiazepine withdrawal, p. 3 (DE-70 attachment]
"Benzodiazepine protracted withdrawal may be difficult to diagnose because of difficulty
distinguishing it from symptom rebound or symptom reemergence.....Clients may also have no
symptoms for a time after stopping benzodiazepine use and then become extremely anxious.
Psychological symptoms can mimic disorders such as agitated depression; generalized anxiety,
panic, or obsessive-compulsive disorders; and schizophrenia. Fluctuating protracted withdrawal
symptoms may last for months but gradually subside with prolonged abstinence" [bold added].

UNC School of Government (UNC SOG) - pp. 6,18, 19, 20, 25, 28, 35, 36
"On the Civil Side" A UNC School of Government Blog https://civil.sog.unc.edu/applving-uccieatemporary-emergency-iurisdiction-in-and-cases/
Applying UCCJEA Temporary Emergency Jurisdiction in A/N/D Cases
1. The Court Authority Is Limited
When exercising temporary emergency jurisdiction, a court may only order temporary orders
that address the emergency and protect the child. GS 50A-204(a) and Official Comment.
Criteria Not Met
"If the criteria for temporary emergency jurisdiction is not met, the court will not have
authority to proceed with the action even if it has jurisdiction under North Carolina's Juvenile
Code (GS Chapter 7B). A court hearing an A/N/D action must have jurisdiction under both the
Juvenile Code and the UCGEA.... Without subject matter jurisdiction, a court has no authority
to hear the case, and any orders that are entered in the case are void. In re T.R.P.. 360 N.C. 588
(2006)."
"The petition should also contain the child's address or whereabouts, and any first
pleading filed by each party in the action must provide under oath reasonably ascertainable
information of the child's address or whereabouts and other information required by GS
50A209(a). GS 7B-402: In re A.R.G.. 361 N.C. 392 (2007). In addition, the petition and/or request
for nonsecure custody should state whether there is an emergency requiring immediate
protection. See GS 7B-503(a) (criteria for nonsecure custody)" [emphasis added].
WEXLER, RICHARD, NATIONAL COALITION FOR CHILD PROTECTION REFORM pp. 8, 9
"Civil Liberties Without Exception: NCCPR's Due Process Agenda for Children and Families"
March, 2021: https://drive.google.eom/file/d/0B291mw hLAJsa3ZWTGNMVOVBOVE/view
Philadelphia City Council 'Ten-member Special Committee to begin meeting in October, examine ways to
reduce Philadelphia's disproportionate rate of child removal" Excerpt: p. 8
"Council members...cite tremendous outcry from family members affected by child separations. Since 2019,
over 100 parents and children have come forward with testimonies of adverse experiences of child removal
by the City's Department of Human Services (DHS)."

xxi

IX. RULE 14,1. (d)
OPINIONS AND ORDERS ENTERED IN THE CASE BY COURTS OR ADMINISTRATIVE AGENCIES.
Unpublished: United States Court of Appeals for the Fourth CIRCUIT No. 19-1409 - Decided:
October 9, 2020 —Appears in Appendix A
Published: United States District Court for the Eastern District of North Carolina, at New Bern, No.
2:16-cv-00061-FL — ORDER: March 19, 2019 -Appears in Appendix A
Published: United States District Court for the Eastern District of North Carolina, at New Bern,
Magistrate Recommendations — 5/8/17 & 6/22/17- Appear in Appendix A
Published: United States District Court for the Eastern District of North Carolina, at New Bern,
ORDER, interlocutory Order: 10/27/17 - Appears in Appendix A
X. RULE 14,1. (e) BASIS FOR JURISDICTION IN THIS COURT
i) Fourth Circuit Court of Appeals decision (affirming district court ruling) was decided Oct. 9, 2020. Plaintiff
filed for rehearing and rehearing en banc on Oct. 20, 2020. Order Allowing filing extension in Appendix.
ii) Fourth Circuit Court of Appeals denied petition for rehearing on November 23, 2020 (in Appendix).
iii) NA
iv) 28 U.S. Code § 2101 - Supreme Court; time for appeal or certiorari; docketing; stay—(c)
v) Copies were served on attorneys for defendants on 02/26/51. Revision copies served April 15, 2021
XI. CONSTITUTIONAL AND STATUTORY PROVISIONS - See Appendix (Rule 14.1 (f)
Fourth Amendment Fourteenth Amendment, Due Process Clause -

1. 2. 3. 7. 8.14,15. 16. 37-39
2-4. 6-9,17. 21-24. 26. 27. 29, 31-34. 39, 40

42 U.S.C. 5 1983

4, 7. 8, 38-40 (entire document)
5

Adoption and Safe Families Act of 1997
29
NCGS 7B-100
19
NCGS 7B-101 Definitions. Neglect
2. 3. 5. 6. 8.18-21, 26. 21. 29, 31, 33-35
NCGS 7B-101 (b) -2013. Custodian
15, 37. 39
NCGS 108A-101 (e) and 104
11, 38
NCGS 122C-268 (i). inpatient commitment order
22-24, 30-32, 34, 35, 39
NCGS 7B-320. Notification to individual determined to be an Rl
22-24. 31-34
NCGS 7B-323. Petition for judicial review: district court
7, 29
NCGS 7B-401. 2013
3,
4,
6,
17,
18,
20,
25,
30,
31,
39,
40
NCGS 7B-402-(b)
________ 6, 7,17, 18, 25, 28, 29, 35
NCGS 7B-404. 2013
________ 6, 7, 17, 18, 25, 28, 29, 35
NCGS 7B-405, 2013___ 6, 18, 19, 20, 22, 28, 29, 35, 36
NCGS 7B-406, 2013 _____ 6, 7, 18, 19, 20, 22, 28, 29, 35
NCGS 7B-407-20137. 28
NCGS 7B-500 Article 5. Temporary Custody: Nonsecure Custody: Custody Hearings
7, 27. 28
NCGS 7B-501 Duties of person taking juvenile into temporary custody. 7. 28
NCGS 7B-502 Authority to issue custody orders: delegation. 28
NCGS 7B-503 Criteria for nonsecure custody
NCGS 7B-506 (b). Nonsecure Custody Hearing
■ NCGS 7B-900.1, 2013, Post-Adjudication Venue
NCGS 7B-1002. Proper parties for appeal
28 U.S. Code § 1738A (el Judiciary and Judicial Procedure UCGEAThe Uniform Child Custody Jurisdiction and Enforcement Act NCGS 50A-106. Effect of child-custody determination

3, 6, 19-23, 36
19
5,34
7. 20. 27, 28

3. 6. 7,18, 20. 21. 28. 35
5

1

UCGEA-102. Definitions
NCGS 50A 102. Definitions

5
29. 36

6. 18, 26. 27. 29
6, 18. 26, 27, 29

UCGEA 205. NOTICE: OPPORTUNITY TO BE HEARD; JOINDER
NCGS 50A-205. Notice; opportunity to be heard; joinder
UCCJEA SECTION 209. Information to be submitted to court
NCGS 50A-209. Information to be submitted to court

3. 4, 6.17.18, 20, 22, 25. 29-31 34,39, 40

2.3. 4. 6, 17. 18. 20, 22, 25, 29-31. 34, 39, 40

NCGS 50-13.1(bl)

2, 26

ABBREVIATIONS
PL-plaintiff...FL-Judge Flanagan...EJV-plaintiff's grandson...JV-plaintiff's daughter..JR-Judicial Review
A/N/D-abuse/neglect/dependency...Const-Constitution...DSS-Department Social Services...ORDER-FL order
CPS/APS -Child/Adult Protective Services...RI-Responsible Individual...RIL-Responsible Individual's List
DE-Docket Entry

XII. STATEMENT OF THE CASE - CONCISE SUMMARY
Plaintiff (PL) appreciates the effort and time District Court expended to review this case;
however, Plaintiff finds lower court's order (ORDER) unduly erroneous, unfair, biased in favor of
Defendants and dismissive of a volume of verifiable, unrebutted evidence PL filed in 70 exhibits
and numerous responses supporting her claims. ORDER p 4, misinterprets much of PL's evidence,
and refers only to some, not all, submissions. Said ORDERS can be summarized as follows.
An online summary of this case states: "Holding that social workers accused of using false statements to
procure judicial orders and giving false testimony during judicial proceedings were entitled to absolute
immunity." According to FL's ORDER, the Lower Court's dismissals are based on the claim that PL was not
deprived of any constitutionally protected rights under the Fourteenth or Fourth Amendments because:
1) PL is a grandmother (ORDER'S reliance on Troxel disregards PL's place in family unit, acting in
loco parentis for EJV); ORDER ruled it doesn't matter if EJV was seized from PL's home and
custody in violation of due process or that Foltz lied about PL's/EJV's status [NCGS 50-209].
2) FL decided harming and depriving a person by falsely accusing them, then denying them right
to due process doesn't matter if the harm to their reputation is not known to the general
public. Defendants, through fraud and without allowing PL proper notice and opportunity to be
heard, trashed PL's reputation with false and unsubstantiated allegations that became
permanent court record. Said record was then expressly cited as excuse to deprive PL of her
grandson's custody, his placement in her home and her right to adopt or even visit him—just
because FL's ORDER decided that PL's only liberty or property right was based on harm to her
reputation, and the records falsely defaming her are not open to general public view. ORDER
erroneously claims the attack on PL's reputation caused her no harm [NCGS: 50-13.1(bl)1
3) FL decided that procedural due process that was violated by two specific defendants doesn't
matter because the laws were state laws that, FL claims, provide protection exceeding those
provided by the Due Process Clause—even though these state laws were intentionally and
specifically enacted in order to ensure compliance with U.S. Constitutional protections (WMB).
2

Furthermore, Plaintiffs claim for compensation for violations of her right to privacy under the
Fourth Amendment was dismissed because, according to Flanagan's ORDER:
4) PL didn't find out soon enough, after she sued them as Officers Does, names of two officers, .
who, without authority, began breaking into her home, refusing to disclose names, when PL asked.
5) DSS APS agents obtained orders—PL alleges without reasonable cause and in violation of ADA,
privacy rights and other laws. Nevertheless, ORDER concludes that orders, alone, were enough.
6) Even though CPS agents didn't have authority to enter PL's home on a particular date, FL ORDER
implies that was Ok because APS agents had an order for specific actions, though unrelated to CPS.
7) PL's adult daughter suffered a disability due to a head injury that DSS labeled as "mental
illness." FL's ORDER implies that a mother's "mental Illness" justifies having a child taken from his
grandmother's care and custody.
8) No matter what DSS Defendants or others did to violate Plaintiff's liberty rights, ORDER rules
that Defendants are protected by immunity, even those who intentionally violated clearly
established laws, including laws enacted to protect constitutional rights and also laws governing
ministerial duties [Congressional Research].
XIII. RULE 10. COMPELLING REASONS: Legal, factual and ethical mistakes made at the District Court
level, then affirmed by Court of Appeals, are so significant that FL's decision should have been
reversed. PL believes Court of Appeals affirmed a lower court ruling that has so "far departed from
the accepted and usual course of judicial proceedings," that it requires "an exercise of the
Supreme Court's supervisory power," as supported by facts stated and supported below.
1. An initial denial of Plaintiff's claim to familial rights as a grandmother is based on ORDER'S
misapplication of Troxel. a decision that Magistrate Swank notes, in her M&R, conflicts with
several other circuit court rulings on "case law addressing due process rights of grandparents"
...including circuits "First, Third, Sixth, Seventh, Ninth, and Tenth." Swank states that Rees v. Office
of Children and Youth surveys this issue in "extreme detail." Cited herein are numerous cases
supporting PL's fundamental liberty interest as a custodial grandmother, acting in loco parentis,
with the mother's consent, as part of an intact family unit before it was unlawfully severed by CPS
and APS Defendants. ORDER ignores the volume of cases favoring PL's claim to rights under these
circumstances by mistakenly relying heavily on Troxel. which does not match them.
2. An arguably mistaken ORDER conclusion [footnote 6] asserts that state courts had ruled already
on PL's issues over removal of JV and EJV. In fact, all state courts failed to address Civil Rights
violations of PL's protected liberty interests [Napue v. Illiniosl. FL's ORDER also fails to address DSS'
3

defendants' commissions of fraud [Cornell], particularly in altering child status Affidavits [NCGS 50
209]. Doing so, misled state court of PL's custodial/parental role as EJV's grandmother, resulting in
state district court's refusal to honor PL's right to be heard at pre- and post-deprivation hearings—
the most meaningful and crucial times in the proceedings. [Child Welfare.gov, National Council,
Carev v. Piphus. UCCJEA 209, 28 U.S. Code 1738 e, Mullins. Albright!.
3. ORDER'S citing of Vosburg is way off. An N.C. CPS worker has authority in any emergency to
remove a child without an order. There is never a need to violate procedural due process.
4. Blaring oversight in ORDER'S failure to acknowledge Intentional fraud committed by Romm to
procure a stipulation [DE-147-70]. ORDER ignores significant evidence presented in PL's exhibits,
particularly her Supplemental Response [DE-147], Defendant Matusko's interrogatory response
[DE-147 -55] and Currituck DSS Director Romm's response [DE-147, 58], showing that Currituck
DSS advised Matusko's deputy clerk in early October, 2013 not to calendar PL's timely filed
Petition for Judicial Review (JR) because, Matusko swears, his clerk was told by DSS that the
agency had dropped its allegation of serious neglect against PL, the very charge DSS threatened PL
with the next month—to fraudulently coerce PL into stipulating to child neglect.
One working day before the adjudication was to take place, on November 18, 2013, (a month
and a half after DSS allegedly dropped the serious neglect charge), DSS had PL's grossly ineffective,
late-appointed counsel offer PL a stipulation, which he did, sternly warning [DE-102, 20] PL that
failure to stipulate would result in her being charged with serious neglect and facing placement on
the RIL [see seriousness of RIL consequences under WBM]. PL knew the charge could additionally
result in criminal prosecution, which is why she made a point to file her Petition for Judicial Review
(JR) by deadline, even though Romm violated due process laws (NCGS 7B-320-323) failing to
personally provide PL proper notification of charges, including informing PL of her right to JR and
providing a form for filing that review. ( More in Argument below on Question 2, with evidence
that these State laws are consistent with federal due process requirements).
5. Coercion. By November 2018, PL undoubtedly had no assurance she'd receive fair treatment in
state district court after numerous DSS violations had blocked PL's right to due process, including
DSS petition lies, omissions and blocking of exculpatory evidence, fraudulent status affidavits,
\
impeding PL's ability to respond and Foltz's unlawful, traumatizing, unnecessary removal of EJV.

4

Because PL had not received notice of hearing after filing her JR Petition, and PL had not been
informed that the charge of serious neglect had been dropped (nor did she know this prior to
receiving interrogatory responses) and because of the seriousness of the charges she was tricked
into believing she still faced in November, 2013, she signed the stipulation only due to coercion
and threat of even worse consequences than the heartrending, traumatizing actions and
deprivations she had already endured, caused by government agents, acting under color of law.
6. ORDER dismisses seriously damaging effects of said stipulation which led to judgment that EJV
had been neglected, then further deprivation of PL's liberty rights— to have her grandson
returned to her care and custody, to have EJV live with her as kin placement [ASFA] if not fully
returned and to adopt EJV. All PL's efforts were prohibited by DSS restating the words and/or
implications recorded in that fraudulent stipulation. PL was even denied right of appeal [7B-1002]
Defendants now argue that PL was never placed on the RIL—So, what's PL's problem? Defendants
got their way, by using the RIL as a threat to coerce a stipulation, they then used to label PL unfit.
7. ORDER'S claim that defamation doesn't matter if not publicized is irrational. Ruling that DSS's
harm to PL's reputation didn't cause any Constitutionally protected deprivation of liberty or
property, because the damning allegations were not publicized, also conflicts with NC Court of
Appeals ruling in WMB. DSS's branding of PL as a child-neglector, whether listing her on the RIL or
not, resulted in SERIOUS deprivation of constitutionally-protected liberties in the following ways:
Stipulation language is quoted in DSS' Motion to Dismiss PL's Petition for Adoption, used as
"evidence" that PL is "unfit" [DE-98 ex 8]. DSS Motion states [DE-147, 48 c]: "On Novemberl8,
2013, Susan Vaughan stipulated to a neglect finding regarding the subject minor child."
The fraudulently acquired stipulation, drawn up by Romm's agency was later used by Romm,
herself, as an excuse to brand Plaintiff as "unfit" in her effort to have PL's Complaint for Custody
dismissed, before she later cited the stipulation language to contest PL's Petition for Adoption.
Romm's words in her December, 2013 Motion to Dismiss PL's Complaint for Custody include:
"...Plaintiff is unfit, in that on November 18, 2013, she stipulated that the child was neglected, and she
has been deemed an inappropriate placement provider by the Department of Social Services and the
Court" [DE-147, 49, p2].
8. ORDER cites/repeats damning, yet unproven, DSS allegations, failing to equally publicize the
fraud that got them on the record. Ignoring the gravity of fraud and massive violations committed
5

by agents, ORDER gives further credence to the fraudulently acquired stipulation by citing its
damning content [ORDER pp. 29-30], which is now publicly available. Failing to acknowledge or
publicize evidence of Romm's role in fraudulently acquiring said stipulation, ORDER states only
that "plaintiff argues" fraud, as if fraud is unsubstantiated. How could PL argue otherwise, given
the facts and Cornell Law School's and others' definitions of "fraud?
10. Another noteworthy example of fraud involves Defendant Foltz's petition seeking removal of
EJV via a nonsecure custody order on August,14, 2013. Nonsecure custody orders are sought when
emergencies exist and must comply with UCCJEA laws and other federal and state laws. [UNC SOG,
UCCJEA, CFR 28 U.S. Code 1738 A e, 50A 106]. Emergency removals are authorized through special
procedures that would amount to clear violation of due process IF used in the absence of
emergency, as they were wrongly used in PL's case. Foltz, in her Affidavit filed with Federal
District Court, clearly states, under oath, that an emergency situation "never existed in this case"
[DE-63,6]. In addition to clearly violating PL's due process rights by unlawfully taking her petition
seeking ex parte removal to a magistrate (which is not allowed without an emergency and the
courthouse closed [7B-404), procuring a telephone authorization, rather than initiating a lawful
pre-deprivation hearing [Albright], Foltz and her supervisor, Defendant Lycett, committed fraud on
the court, by failing to note on the status affidavit that the child (EJV) was in the care and custody
of PL, whom Foltz had previously stated verbally and via email that she believed was taking good
care of EJV [DE-98,-4]. Rather than correctly fulfilling her clerical role - correctly filing the federally
required Affidavit as to Status of Minor Child, noting who had physical custody of EJV and with
whom he had lived for the last 5 years—Foltz noted only on her petition that EJV lacked someone
to care for him because his mother was in the hospital, and further lied that there was "no
appropriate" kin placement for EJV. Because Foltz made false, distorted and seriously derogatory
allegations about PL in her petition, and her Affidavit didn't identify PL's status as custodian, Foltz
misled the court about who had right to be heard before a custody determination was made and
during all post-deprivation hearings, three of which were held in Dare County [Child Welfare.gov].
Plaintiff argues more fully below how Foltz violated Federal and state due process laws and
seriously deprived PL and her family members of their constitutional rights, not just plaintiff's right
to familial association but her right not to have her reputation trashed and used against her for
further deprivation of her right to custody and adoption of EJV, and TPR of JV.
6

11. Subpoenaed pediatrician records were blocked from court record by Dare County Sheriff.
Evidence proving EJV was never sick, neglected or abused, (while with PL and JV) was intentionally
blocked from delivery to the court by Sheriff Doughtie, just because, he said, PL had paid someone
else, besides him, to properly serve the subpoena (Rule 45).
12. ORDER claims PL is not entitled to prevail in her Fourth Amendment claim because it took too
long to discover the names of officers who terrorized her and JV in 2015 by attempting to break
into her home without even a pretense of authorization to, then refusing to identify themselves or
their department [ORDER,p. 10]. This seems unfair under the circumstances of PTSD.
13. ORDER'S footnote 27 is rebutted by U.S. Code § 1738A (e), UCCJEA, NCGS 50A 205 (a), NCGS
7B-401-407, UNC SOG, Wallis]. Citing 7B-502 to support legitimacy of child removal, in the absence
of emergency, amounts to cherry-picking, out of context, one law, as argument to dismiss PL's
claim for numerous, blatant violations of procedural due process. This is serious error, considering
the fact that PL cited state and federal laws dictating exactly what state and federal due process
requires in all her state and federal court filings—laws that clearly outline the proper process [DE98 - 9, 5, 5, 11,12,13, DE, 48, ex's A, C, D, E, DE-108, 9, DE-147]. The court has sealed some
exhibits that cite these laws [DE-98, 9,12,13].
14. Further notable bias in said ORDER is its public chastisement of PL [p 3], adding derogatory
assumptions about pro se PL's motives for a mistake she made due to legal inexperience,
especially in comparison to ORDER'S disregard of the seriousness of the fraud described above.'
15. ORDER ignores Qualified Immunity limitations. Assumption that caseworkers who seized a child
and a disabled adult, seriously traumatizing both, in non-emergency situations and in violation of
Due Process and state law, are entitled to Qualified Immunity (Ql) protections, ignores the
limitations of Ql and negates the intent and purpose of such protections, meant only for decisions
made during emergency, life threatening situations or to protect government agents who act in
accordance with clearly established laws while making discretionary decisions. Ql, has nothing to
do with other roles or criminal behavior [Gaubert. Taylor, Marsh, Congressional Research Service].
Plaintiff believes arguments herein show ORDER error that exceeds those of factual findings or
normal misapplication of properly cited rules of law. PL also asserts that ORDER demonstrates
complete misunderstanding and detrimental misapplication of state and federal laws governing
non-emergency situations in child protection cases and shows bias against Plaintiff
7

Another compelling reason for hearing this case is that CPS tactics used against PL and other
families are widespread, routine and very difficult for most of those targeted by CPS abuse—the
poor—to obtain proper representation, in light of the gravity of consequences to families when
the government prevails with its forgiven due process violations and unfair practices [Justia].
PL believes that, in granting immunity to Defendants in this case, disregarding the legitimacy
of state due process laws, grandparents' rights, liberty interests other than employment and how
unpublished branding can and is used to deprive one of rights, the 4th Circuit Court of Appeals, in
affirming the District Court's dismissals, has validated social workers' propensity to lie to the court,
knowingly commit fraud and further violate due process. Furthermore, FL's ORDER decision
conflicts with other Circuit rulings regarding social workers lying on petitions and custodial
grandparents' rights [Hardwick and Rees. 42, U.S.C, Moore. Rivera. Congressional Research],
This case exemplifies what has become a widespread, much hated and feared routine practice
among many DSS/DHS agencies to the extreme detriment of those they are paid and claim to
protect - children (under CPS) and disabled adults (under APS), and it leads to another compelling
reason for Supreme Court review—whether or not it is beneficial to society for parents,
grandparents or other family members to fear seeking needed assistance from social workers that
could prevent child neglect, because these government agents have earned a notorious reputation
of routinely violating laws that govern these protective services' authority and limitations, causing
more harm than good, often destroying loving, caring families. The fact that Philadelphia recently
created a special committee to "...address outcry...from over 100 parents and children" who gave
"testimonies of adverse experiences of child removal by the City's Department of Human Services
(DHS)," further supports Plaintiff's claim of violations and experiences.
This common practice of CPS workers violating due process rights has also been researched
and documented by the National Coalition for Child Protection Reform's (NCCPR's) executive
director Richard Wexler and exemplified by thousands of cases throughout the U.S. According to
Attorney Diane Redleaf, in her book about her 30 years of observation of such removals:
CPS caseworkers continuously separate children from their parents at a monthly rate 300 times
greater than the number of the separations at the Mexican border that took place in May 2018. These
separations occur day in and day out. They commonly happen in secret and without fanfare. CPS
caseworkers take children from their homes, their schools, and from hospitals if the children have
been taken for medical care.
https://www.cato-unbound.org/print-issue/2424
8

Wexler points to the horror of border child separations to bring attention to what is
happening too often with children of U.S. parents, later noting that thousands more are separated
from parents of citizens than at the border—and, as statistics show, most removals are based on
allegations of neglect, often targeting and punishing low-income, single and minority parents
instead of providing them financial help. Regarding the harm these separations cause children,
Wexler writes that "Experts warn that the trauma inflicted on children by separation from their parents is,
in the words of one professor of pediatrics, "catastrophic."
Details of PL's case illustrate what Wexler describes in his paper demanding "Civil Liberties
with No Exception," regarding CPS's routine violation of Due Process, noting that "There can be no
true child protection when a government agency is given virtually unchecked power, almost no
accountability, and operates in secret" [emphasis added].
Likewise, Redleaf's observation that "CPS systems have improvised clever tactics to avoid
ever presenting a legal case to a judge when they remove a child," is a fair characterization of how
social workers operated in PL's case. Romm violated due process and then lied to procure a
stipulation that eliminated DSS's obligation to provide judges any evidence of its false allegations.
Plaintiff has not been able to obtain justice through State or lower federal courts, which also
refuse to address PL's proof that neither the state nor DSS ever established subject matter
jurisdiction [see UNC SOG, Joint]. State courts ignored the due process violations and fraud that
served to permanently sever PL's family, resulting in serious harm to JV and substantial financial
loss, leaving PL with no other option than to file a Federal lawsuit. PL sincerely believes that this
highest Court of last resort has never had a more important case to review. Reviewing it will also
address the essence of thousands of others. I ask that you please consider doing so.
BACKGROUND: Plaintiff, the author of this Petition, writes this part in first person.
I am the mother of a disabled adult daughter, JV, who, while living with me, had a child in
May, 2013, EJV. JV came to live with me after EJV was conceived, and I cared for her, including
buying supplements normally taken during pregnancy, cooking nutritious meals with
predominantly organic foods and offering her other care, but I could not get her to seek care
outside the home, and there is a reason for this. JV was previously, in my and her opinion, abused
and severely traumatized by Dare Department of Social Services (DSS) after she suffered a head
injury with severe Maxillofacial trauma, along with jaw and skull fractures, in 2008, caused by
9

fainting and hitting, chin first, the bathroom tile floor of the local library. It was August, very hot,
and the library's air-cooling system had broken. At the time, JV was suffering physical symptoms of
fatigue and sore throat and, on her way to get blood test results, first stopped by library to pick up
a book. She was taken by ambulance to the local hospital that could only stitch the gash in her chin
and therefore was referred to a surgeon in Virginia to treat multiple fractures. We learned that
night that her blood tests had shown she had an active Epstein Barr infection, but I knew little
about that at the time or what effect it and her head injury may have had on her later.
The necessary surgery took two days and ended with JV's mouth wired shut, a tooth knocked
out, one .broken in half and about 20 fractured. It was traumatic and painful. I took care of her
throughout this post-operative ordeal, blending her meals as smoothies and missing some work.
When I asked for assistance, DSS would not help with food stamps, citing the reason as not having
children. Because I felt the county may have borne some responsibility for her accident, due to the
heat in the library, I wrote asking the county for assistance with medical bills, receiving none.
JV recovered from the fractures, and after her jaw was unwired, she sought to have her teeth
restored. This process involved, I learned too late, an overdose (4 times the MRD) of a very
dangerous benzodiazepine (Halcion) which at the time was being used in the U.S. (while banned in
the UK) experimentally, off-label, in doses higher than recommended, as a dental sedative. I was
unaware that this drug had just killed a dental patient in St. Louis and later killed one in Cary, NC. I
knew nothing about what the drug could do to a person's brain and behavior, but I have since
found it causes, in some, bizarre reactions that can recur at times [The Therapeutic Nightmare].
Within months of completion of her dental work, JV developed symptoms very similar to
those of Susannah Callahan (also initially diagnosed with Epstein Barr) known for her story and the
film, "Brain on Fire." Even unaware of Callahan's case at the time, my behavior was very much like
that of her parents in trying to find the cause of JV's symptoms and insisting it was not "mental
illness," not wanting her forced into a mental hospital. Soon after the symptoms began, I sought
the help of a trusted county APS worker who had helped my family in the past (my children's
father died from Agent Orange-related leukemia). This APS worker did her job in a helpful and
respectful manner and assisted me int getting JV to the hospital where she was evaluated by a
neuropsychiatrist who diagnosed brain injury and recommended an evaluation by a neurological
specialist, none of which existed in my county at the time.
10

I relate the above to explain why I later disagreed with new social workers (the helpful one
retired) concerning their unprofessional diagnosis opinions, and their using these opinions to
stigmatize JV, refusing to accept or support me in any way in getting her what many TBI specialists,
in addition to Dr. Dolshal, told me would be proper evaluation and treatment. At the time, I had no
knowledge of the dentist's overdose or what Halcion/triazolam can do to some people or how, at
times, the symptoms caused by even one dose of this dangerous drug mimic mental illness and
can come and go or be triggered by stress or simply brain injury.
New DSS APS workers, a couple of years after the injuries occurred, had JV dragged off in
handcuffs from a treatment facility she was visiting at her chosen psychiatrist's recommendation
(this doctor also noted a brain injury had likely occurred). DSS forced JV into a mental hospital
when she exhibited no danger to anyone. The law required, at least at the time, danger to oneself
or others for this action to be warranted [McCray, NCGS 122-C (j)], DSS's unnecessary and unlawful
actions severely traumatized JV and me, and, understandably, JV wanted nothing else to do with
Social Services, once she was on her own again. Even after she was freed from DSS control, DSS,
still refusing to advocate for TBI (traumatic brain injury) treatment, continued to harass her and
denigrate me because I refused, without evidence of danger, to take any unlawful or unnecessary
action that would again traumatize JV. I and others note that the way this is carried out is barbaric,
and the UN has even classified this as torture. I have instead repeatedly sought appropriate and
benign treatments for the trauma JV suffered. That is not neglect. However, DSS' forced
treatment addicted her to other benzodiazepines (less dangerous than Halcion, but very
damaging, very hard to withdraw from when used long term {DE-70, USDHHS Advisory), and when
JV found she was pregnant and stopped taking these drugs for the benefit of her child, she
suffered withdrawal after EJV's birth, and a return of some previous symptoms.
Return to 2013 at our home. I had bags packed and ready to take JV to hospital when it was
time for delivery. However, earlier than I expected, and amazingly without her suffering any
noticeable contractions, her child came so quickly and unexpectantly after she awoke from a nap
that he had to be delivered before I could get JV to the hospital. Having spoken to midwives
throughout her pregnancy, although these were not allowed to practice in that county, I learned
what to do in case such an event happened, as I knew the possibility exists with any pregnancy.
EJV was born easily and quickly. He was healthy and thriving under my care, which I took control of
11

when his mother, suffering a relapse of earlier symptoms, was not able to handle all the feedings
and other needs on her own.
Because insurance doesn't cover hospital care of a delivery after it has occurred, and EJV was
in no distress whatsoever, I made plans instead to have a car seat installed and to take him to a
pediatrician as soon as possible. I got help from friends shopping for baby needs. In the meantime,
since JV did not want to seek medical care in our county, and I did not have legal guardianship, I
contacted the psychiatrist she had seen previously. That doctor had blood tests ordered and
referred me to another who ordered more tests to make sure she was physically Ok. I also took JV
to Virginia (where she felt safe) to get blood drawn and see a physician.
All lab tests were normal, but some symptoms, which are common with benzo withdrawal
and TBI, persisted, so I consulted with a TBI specialist and psychiatrist in Virginia and sent medical
records JV allowed me to share and set up appointment with this specialist for treatment, to which
JV agreed. There was a wait of over a month, and in the meantime, I had purchased a car seat,
asked a friend for a pediatrician referral [DE-98,14] and called to find out how to arrange for a
visit for EJV. The car seat was to be installed by the fire department which offered this service,
making sure it would be properly secured.
The day before a frozen lab sample for JV was to be picked up by Fed Ex, JV called and set a
pediatrician appointment for EJV for the next day, not informing me until the office was closed. I
immediately called and left a phone message that I'd have to postpone the visit for a couple of
days because I had to be home for a lab sample pickup - and I was waiting on the fire department
to install the child seat I had bought. That department had had a delay.
The next day, without any notice or phone call, social worker Shannon Foltz showed up at my
door with a police officer, demanding I take EJV to the pediatrician at once. I asked if she was
aware that I had called to postpone only a couple of days, and she confirmed that she was [DE-48,
ex. K] but still insisted, even after seeing that EJV was in no distress, was healthy and well-fed, that
I drop everything and allow her to drive us there. I explained and showed Foltz the packaged and
labeled sample to be picked up by FedEx - which had to be picked up that day. At this point
Shannon Foltz knew JV was getting medical care and that JV and I had made arrangements for a
pediatrician visit - something she later lied about on her petition. Foltz finally agreed that I could
wait a couple of days, and she and the officer left. After talking to the fire department, finding they
12

could install the seat the next day, I reset the pediatrician appointment and left Foltz a phone
message that EJV would be seen in two days. Thinking reasonably, at the time, that reason was on
both sides, I assumed the matter was settled.
The lab sample was picked up that afternoon. The fire department installed the seat, and my
grandson was seen by the pediatrician and found to be well, well-fed and unharmed in any way nothing wrong with him. Blood samples were taken, and It was recommended that EJV get a
hearing test, so I set that up, and it was done a week or so later, finding no hearing deficit. JV was
still awaiting her appointment with a neuropsychiatrist [O'Shanick DE-108, 6]. I later talked to an
attorney for whom this doctor often testified. He confirmed that JV's accident met TBI definition,
as have many medical experts since opined. To this day, however, DSS misinforms courts and
others that I refuse to accept JV's "mental illness," insinuating, even saying in court once, that I am
mentally ill myself for not agreeing with them and the doctors they forced JV to see, over whom
DSS had considerable influence.
Foltz never provided me any of the state-required documentation from her department (DSS
Dare County, NC) that is required to confirm her/her agency's authority to be involved with my
family (DE-147 -47, 56, DE-102,19). I was not then aware of laws, stating that a DSS agency has no
authority unless an investigation discovered neglect or abuse, which it did not, as the pediatrician
records show. Foltz provided no verbal or written statement of expectations or requirements,
nothing saying I needed to do anything differently or what her concerns were other than emails
asking to check on my grandson, periodically, and to speak with JV, who refused to speak to her,
which was outside of my control. Reasons for JV's reluctance have already been explained. In the
meantime, I tried to get JV's appointment with the TBI specialist moved up, but was unsuccessful. I
had spent considerable time getting a referral for this expert, speaking to the Virginia Brain Injury
Association and others who highly recommended him, so I hesitated to seek further. I did try to
find others available in areas of N.C. where I have relatives, but none of these were readily
available either, and JV preferred to go to Richmond. This was a family decision that DSS had no
right to interfere with. But they did and later lied on a Motion seeking dismissal of PL's Petition for
Adoption [DE-98, 8], falsely claiming that I had not even advocated for treatment for JV!
DSS's unwillingness to reasonably assess documented facts regarding JV's injuries,
subsequently forcing on JV traumatizing treatments of their choice, created, in turn, a refusal of JV
13

to further consult or trust this agency. Ironically it has taken years for media to report how N.C.
routinely traumatizes (treating patients like criminals) and unnecessarily involuntarily commits NC
residents who suffer symptoms but are not dangerous to anyone [North Carolina Health News,
Dec. 14, 202Q."More NC psych patients are ending up handcuffed in a police car. Why?"
Foltz continued, even after EJV's two well visits and a normal hearing test, to demand that JV
speak to her and that she continue observing me caring for EJV. I complied, not aware at the time
that she had no right to demand it. She never, at any time, nor did any Defendant ever provide
one iota of evidence that EJV was neglected, abused or in danger. In fact, the evidence provided in
this case includes sworn affidavits from Foltz and other DSS defendants stating clearly that no
emergency involving either EJV or JV ever existed [DE-63, 3. 5, 6, 7], Even though Adult Protective
Services (APS) agent Ryder does not testify explicitly that no emergency existed, her supervisor,
Melanie Corprew, does in her affidavit (DE-63, 5), stating she was not "aware of any such situation
where any of her social workers witnessed "...an emergency requiring immediate entry to prevent
harm to a person...." This means no DSS agents had grounds to seek court orders authorizing
invasion of PL's privacy. Period. Orders obtained by lies are not valid now and never were; they are
not reasonable [Fourth Amendment].
In the meantime, Foltz's insistence that JV talk to her put JV under so much stress that her
sleep deprivation worsened. She particularly needed to avoid this added stress, as insomnia was
and remains a serious problem with those who have been traumatized physically or emotionally.
At some point, fearing what Foltz might do to her before we could get to the specialist, JV wrote a
friend from high school, then living out of state, basically asking if JV could come stay with her for
a while. This is apparently how Ryder ended up getting a note in which JV allegedly said something
to the effect that she was locked in without her car keys, which, based on what is cited in ORDER,
Defendant Ryder somehow absurdly mistook to mean that I was holding JV hostage. I was not, but
Ryder never bothered to consult with me to find out what the note was about. She just assumed
the worst and showed up banging on my door.
While I can respect Ryder's concern, I cannot respect the way she handled that information
and then misrepresented it to the Clerk of Court. I don't know whether or not she was aware that
I was up much of the night feeding a baby his bottle, and having a need to sleep late, but she,
without any prior notice, came to my house banging loudly on my door, waking and startling me.
14

By the time I was aware of what was going on, I went on the deck and saw her at the end of my
long driveway, yelling at me about something. At that time I had no knowledge that JV had sent a
note to anyone. Ryder yelled that she needed to see JV, without saying why, and when I said I was
sure JV didn't want to see her, Ryder threatened to call police. So I went inside and upstairs to tell
JV what Ryder had threatened. JV came to the door, and I asked Ryder not to come near JV, but
just come where Ryder could hear and see JV at the door, knowing JV was frightened. Ryder spoke
to JV. I heard JV tell Ryder that she was fine, but then Ryder demanded, in a really harsh tone, that
JV come outside on the attached deck and let Ryder examine her. JV responded to that demand by
going back inside and closing the door, as she had every right to do. Ryder stomped away angrily.
As we know from the ORDER, Ryder falsely claimed that she did not speak to JV, and that I was
yelling at HER -not the other way around—and, based solely on that hearsay testimony, with
neither I nor JV given opportunity to be heard on the matter, Ryder got an order from the Clerk of
Court [Albright]. The next day, what I refer to as a Swat Team, showed up with an order, as Ryder
testifies [Ryder Aff. -4, DE-63], "to check on [JV's] well-being," something that N.C. law does not
allow -ie interference with a disabled person's rights when that person declines APS assistance
[NCGS § 108A-104]. Despite the fact that Ryder obtained an order, stating specifically that it was
for the purpose to check on an adult, JV, which is certainly not a function of Child Protective
Services, CPS agents Foltz and her supervisor Chuck Lycett invited themselves into my home, with
no authority or permission to enter, and Lycett and police stood in my living room without my
permission, while Ryder and Foltz interrogated JV upstairs [Groh, Fourth Amendment].
When I took EJV, who was downstairs with me, to my bedroom to change a diaper, Lycett
. invited himself into my bedroom to watch me! When I walked back out of my bedroom, I found
Ryder in my kitchen going through my kitchen cabinets and refrigerator before interrogating me
about vitamins sitting on my counter. Police officers stood and did nothing to stop Ryder from
violating my personal privacy. So far, apparently no court has a problem with this behavior, even
though neither Ryder, Foltz, Lycett nor anyone else denies this occurred, and Foltz and Lycett
continue to claim they had a right to enter just because there was an order allowing APS, not CPS,
to check on JV. Flanagan's ORDER then publicizes the lies Ryder used to obtain her order, as if I,
not Ryder was in the wrong—choosing to believe Ryder over PL or the law, not considering the
absence of emergency—certainly NOT viewing the evidence in light of Plaintiff, as ORDER claims to
15

do. These unlawful, intrusive and unnecessary actions by DSS agents is one reason I filed claims
against these defendants under the Fourth Amendment, especially because Ryder was not even
finished harassing us, and her continued harassment caused more serious harm.
As soon as the entourage of gov't agents finally left my home (JV was not committed that day
as FL's ORDER errs, nor was any action taken against me yet for the false assumptions Ryder made
about me), JV, now shaken, asked me to "get her out of there." Having no order from anyone
telling me I could not leave town to visit my extended family, I, EJV and JV then went west to visit
relatives. When we returned about a week later, Foltz had emailed and requested a visit, again
providing no grounds to make such a request. A doctor I had spoken to about how JV was being
traumatized by Foltz's visits suggested I arrange to meet with Foltz elsewhere to ease JV's stress
during the few days left before she was to keep her appointment for TBI evaluation and
treatment. But JV never got that evaluation and treatment, because DSS interfered - again.
About a day after we'd returned from visiting relatives, I received in the mail a summons to
court for a hearing about JV to be held in a few days. I wrote the court a letter to explain that JV
was going to get the treatment she needed in a few days. However, we never got that hearing
because DSS Ryder sought an order to have JV IVC'd, without any legal grounds to do so and
without giving either me or JV an opportunity to be heard or any notice as to why Ryder was
seeking this order [Albright]. The police came again, unexpected, and seized a terribly upset JV,
crying and handcuffed, in front of her child, traumatizing us all, and carried her out to their police
car, treating her like a criminal. Upon their departure, before I, in shock, could close the door, Foltz
and Lycett walked in without invitation or authority and demanded I tell them what I was going to
do next. I told them my neighbor was going to care for EJV while I went to the hospital. Foltz
demanded I give them my neighbor's name and phone number, then they left. Keep in mind, Foltz
had never given me anything stating that I need to change anything or any proof that she had or
her agency had legal authority to demand anything from me! She had only said she wanted to
speak to my daughter, and my daughter refused.
After Foltz and Lycett left, I dropped EJV off with a neighbor's who had watched EJV before
and went to talk to hospital staff about JV's upcoming appointment. I was concerned that DSS
would, once again, prevent JV getting TBI evaluation, now when JV was most motivated to get

16

treatment - that they would block her from getting further confirmation of her brain injury, which
might have put their past actions under scrutiny. And that's exactly what they did.
JV requested to see me, and that I be present for her evaluation. But a hospital police officer
approached me in the lobby and chewed me out, saying I was not going to see JV "after what I did
to her." I asked his name and what he was talking about, but he refused to answer and then
demanded I leave, even though I was not acting inappropriately. I did not learn for weeks, after
Foltz had explicitly attacked me and my reputation in her petition, that the next day, when nurses
had told me I could return and be present for JV's evaluation, as JV had requested, that
Defendants Ryder and Foltz had come to the hospital, and, while JV was heavily drugged,
interrogated her-while I was being told to wait in a closed room! They allegedly got JV to say that
I had" bruised" her. To this day JV insists she has no memory of the interrogation, to which she
testifies in her sworn Affidavit [DE-108, 2]. I never bruised anyone in my life. I never abused or
knowingly harmed anyone. For Foltz and Flurd to accuse me of this is outrageous and criminal.
I now know that Foltz—that same afternoon, after interrogating JV, after which JV was
transferred to a mental hospital out of the county without the proper evaluation ever taking place,
much less my attendance - took a hastily drafted petition, containing lies, omissions and
distortions, specifically implicating me, to the Magistrate's Office, rather than the Courthouse,
which was open for business, which is a clear violation of NC statute [NCGS 7B-404] and due
process. Foltz presented her lies and other fraud, in the form of a fraudulent Affidavit and got the
order she unlawfully sought, issued by a magistrate and authorized by Judge Davis, both in
violation of state and federal laws. No emergency was even alleged, which, in itself, prohibited
Davis and Magistrate Clark from proceeding with an ex parte hearing, of which neither I nor JV
received prior notice. Earlier that day, I had shown up for what was supposed to be a hearing in
Dare Count Courthouse, to find that DSS had cancelled it, choosing instead to break laws by
seeking an ex parte order to remove JV and steal my grandson.
In other words, Foltz had to not only violate procedural due process, but she had to lie about
me, trash my reputation, lie to a judge about the child's living status, and unlawfully go to a
magistrate, instead of the Courthouse, to get a magistrate's signature authorizing her to bring a
police officer and demand I turn over EJV -only 3 months old - to a perfect stranger - rip him from
my arms, never allowing me to see him again [7B-404] These were not discretionary decisions!
17

Every statement I write herein is either supported by documentary evidence that I have
supplied all the courts and none are rebutted with supporting evidence by any of the Defendants.
Even though defendants, through their attorneys, made blanket denials— lying yet again, this time
to a Federal District judge—that they followed all laws and procedures, they never disputed the
facts I asserted and supported with clearly documented evidence on record, nor have defendants
provided any evidence that proves their claims of complying with all laws. All one has to do to
know that Foltz committed fraud is look at the August 14, 2013 Nonsecure Custody order to see
who signed it - Magistrate Clark at 4:19 in the afternoon on a weekday, when the courthouse was
open. All one has to do is look at Foltz's Affidavit as to Status of Minor Child to see she left off PL's
name as the one with whom EJV lived in the past 5 years [DE-98,1,10]. In fact, EJV never lived
anywhere else but with PI and JV. It is an outright fraud on the Court for Defendants to claim they
complied with all laws. Even worse, Judge Flanagan denied my right to have this evidence heard
by a jury, based solely on the excuse that even if some defendants lied about me on their petitions
used to remove and keep my grandson in Foster Care, which is a Civil Rights violation and attack
on my good reputation, I have no Constitutional liberty claims because they didn't publicly disclose
their lies, because I'm a grandmother and because they have Qualified Immunity anyway.
Foltz, after previously stating, and via email, that she believed I was taking good care of EJV,
nevertheless, on her required Affidavit as to Status of Minor Child, omitted that federally and
statutorily required information making it appear that when APS forced JV into IVC, there was no
one in the home to care for EJV and appear that I was not entitled to rights granted to one having
physical custody of the child [UCCJEA 205 a and 50A 205 a]. Furthermore, proper completion of
that crucial affidavit is a ministerial role fGaubert, Marsh], Any 12-year-old could do it. [DE-48],
Instead of disclosing to Judge Davis that I was living with and caring for my grandson, Foltz
made it appear that I was no more than a "willing kin," living elsewhere, which the law dictates
must be the first placement consideration, over Foster Care or CPS custody.
So, it appears that Foltz found it necessary to trash me and my reputation in order to get
around the law requiring she consider "appropriate" kin placement, required before a child is
traumatically placed with strangers. Again, this was not even the proper procedure when the kin is
already the custodian and part of the child's family unit. I was the physical custodian and the one
with whom his mother had chosen EJV be with when she was force-hospitalized. But Foltz and the
18

court thereafter proceeded as if I was only a potential kin placement, rather than the one to whom
he should be returned, unless DSS could provide "clear and convincing evidence that he should
remain" in their custody. [7B-506 (b)]— that is if a nonsecure custody hearing was even
appropriate under the circumstances - which it was not. In fact, the facts in this case determine
that the court never had subject matter jurisdiction to hold either an ex parte hearing or
subsequent nonsecure custody hearing [UNC SOG on temporary custody]. Nevertheless, obtaining
subject matter, did not seem to matter in state district court. Therefore, at the first post­
deprivation hearing where my presence was not even recorded; I was not allowed to respond to
Foltz's testimony and attacks on my reputation, much less allowed to hear most of what she said
or cross examine her, sitting in the audience section. JV was not even allowed to attend.
The irony is that the lies Foltz wrote about and testified to - under oath - even if true, do not
amount to either legal or agency definition of child abuse or neglect [7B-101, DE-102,19, NCDHHS
Screening Tools/Neglect, NC Manual intake]. These lies include: PL didn't seek a pediatrician visit
for EJV until after Foltz got involved; PL was "adamantly opposed to vaccines;" Plaintiff disagreed
with DSS about JV's diagnosis; PL "bruised" her daughter. Foltz never provided any evidence to
support those lies, and she never had to because of the later fraudulently procured stipulation.
The first chance JV had to testify -after the case was unlawfully moved to another county [7B900.1], JV denounced the claim that I had harmed her or anyone else and told the court, which
Foltz admitted under oath, that she wanted her child to be with me [see appended court
recording]. One nonsecure custody order, noted on a pre-printed order form, following the second
post-deprivation hearing, shows DSS noting that I was a willing "but inappropriate" kin placement,
alleging that I only offer "homeopathic" care, another lie DSS published about me while denying
me any opportunity to respond [DE-48. Ex H]. The TBI specialist with whom I made appointment
for JV, is not a homeopathic practitioner; he is the former President of the Brain Injury Association
of America and a psychiatrist [DE-48, P ex 6 & DE-147, ex 25]. My verbal request to presiding
judges to respond to DSS lies was denied because Foltz had not identified me as EJV's custodian or
caretaker. She continued to lie to the court in this regard by refusing to correct her status affidavit
[PL ex E-ll]. After first post-deprivation hearing, I found relevant statutes and filed a PROPER
motion seeking a stay on the proceedings until the Status as to Minor Child affidavit was corrected
[DE-48, ex E, DE-98,11]. Had Foltz done her ministerial duty and corrected the affidavit, the court
19

would have been obligated to respect my right to participate in the hearings. The way the law was
written at the time (August 2013) (documentation I provided all courts), states that I was not only
the physical custodian but also the legal custodian [DE-116, 37, 7B-101 (b)] and clearly entitled to
right to be heard before and after EJV's removal from my care and custody—not only according
to statutory law, but also federal law [28 U.S. Code § 1738A and UCCJEA, 7B-506 (b), 7B-406,
National Council, Albright].
With Foltz's fraudulent affidavit remaining unchanged, my ability to even try to clear up what
Foltz had accused me of remained violated. Worse, Foltz never had to prove any of her allegations.
The fact that Foltz didn't correct the information she swore was accurate is evidence that it was
intentional and intended to mislead the court and is further evidence of fraud. This act is not
protected by Qualified Immunity! [Congressional Research Service].
After I filed motion requesting Foltz's affidavit be corrected and my right to be heard
respected, the result was NOT correction and restoration, but RETALIATION. Instead of the Court
addressing all the errors, misdeeds, violations and lack of grounds for nonsecure custody, Dare
County DSS hired another attorney (Hull), who filed a motion to move the case to Currituck
County, which was clearly unlawful for DSS to seek at that time [7B -900.1]. But attorney Hull
argued the law WAS gonna change the following month - so why not go ahead and allow it! And of
course, as with all such matters dealing with CPS, the court cordially complied with DSS's request.
The gut-wrenching pain I suffered during this time on behalf of myself, JV and EJV was nearly
unbearable. The TBI treatment I had hoped would restore some semblance of JV's former life,
because of her motivation to be well for her son, was prohibited by APS who had been given
temporary control, long enough to force an addictive benzodiazepine treatment on JV, demanding
she forget about TBI if she wanted to see her child again, according to JV's filed Affidavit [DE-1082). DSS also demanded JV withdraw the Power of Attorney she had signed over to me previously.
The NC Advisory Council had warned about NC's overall neglect of people suffering brain injury
and misdiagnosing symptoms as mental illness [DE-108,13], and DSS action is living proof of the
legitimacy of this investigation. DSS decided JV was "mentally ill," and they made sure other
physicians agreed with them. What this department and Currituck's DSS did to JV has had a long­
term detrimental effect on her and continues to exacerbate the PTSD that came with the initial
injury. She mourns the loss of her child every day and blames herself for calling the pediatrician.
20

Imagine that, DSS's actions discourage one from seeking treatment or assistance. That is what
their actions have wrought. However, whatever they do, they enjoy immunity from consequences
in almost all cases, no matter how much evidence reveals their misconduct; therefore, some
agents continue to do as they please, right or wrong, with impunity.
Despite that JV was hospitalized in August before EJV was removed, and controlled by Dare
APS, and I had done nothing to harm EJV, JV or anyone else, nor was I "inappropriate" for believing
JV's main diagnosis was TBI instead of mental illness, CPS refused to correct the record, and I was
not allowed to be heard in my own defense (clearly violating 7B-506 (b) and the Due Process
Clause of the Constitution). Also, upon release from hospital, APS forced JV to live separately from
me and prove to CPS that she, by herself, without my help, could care for her child, just after being
in the hospital and DENIED treatment for TBI.
Despite being unlawful at the time, the custody case was moved in September, 2013 to
Currituck County, where that county's DSS wrote up a new petition [DE-98, 7], this time with me as
Respondent, and this time accusing me of "seriously neglecting" EJV, adding to the other lies Foltz
had recorded, that I had failed to provide "remedial care" to a child who had never been sick or
harmed while in my care. (However, while in Foster Care, a few months later, he had to be
hospitalized with pneumonia!). Note: ORDER erroneously states that Plaintiff was named
respondent in the initial petition. She was not [p. 11H 2]!
I was in shock. I had no real understanding at the time what was being pulled on me. It's now
obvious to me that Currituck DSS HAD to come up with something to accuse me of because Foltz's
attack on my reputation had nothing to do with child neglect or abuse, which is required for DSS to
even be involved. So, the lies became more blatant. However, this time, as respondent, I was
recognized as a party, though not custodian, which would have allowed right to appeal.
In Sept, 2013, at the third post-deprivation hearing in Dare County, after being kicked out for
seeking permission to be heard, I was brought back in and told that I would be able to have
Motions I had filed there addressed in Currituck [DE-98-11, DE-48, J]. Bringing with me tangible
evidence and having subpoenaed pediatrician records, on 9/23/13,1 walked into the Currituck
Courthouse prepared to defend myself against Foltz's original allegations. I had not been served
Currituck DSS's NEW PETITION at the same time others had. I was handed this new petition with
new and very serious allegations AS I WALKED INTO the Courtroom that day. The new lies
21

implicated me as something very negative, known as a "responsible individual," subject to
inclusion on a list that clearly denies certain Const, rights of those so placed (an RIL). I was not
allowed to request a continuance. However, records indicate all other parties were notified 5 days
earlier. Therefore, I was denied proper due process from the very beginning of this new
procedure, and my accusers never spoke to or met with me prior to accusing me so harshly.
On top of this procedural due process violation, and although the new judge recognized my
party status, but only as "caretaker," I was denied appropriate time to question my accusers. I am
unable to afford a transcript of that sham court hearing, and I have been barred from obtaining CD
records of any held in Dare County. I can provide only the audio of the 9/23/23 hearing to prove
how egregiously my right to cross examine and question witnesses was completely denied or
strictly limited during those "hearings [Appendix extra 11:40-12:02]. At that 9/23/13 hearing,
Judge Reid told me I was not allowed to speak until spoken to, and when she angrily restricted my
ability to cross examine those who accused me of not providing "remedial care" to EJV, Reid told
me, despite what 7B-506 (b) clearly states, that we were not there "to determine whether or not
the allegations were true." Reid also advised not to put my exhibit evidence on record at that
time. Yet she decided to keep EJV in foster care completely ignoring my unrebutted witness and
other testimony, which DSS did not even try to refute. If I were allowed a trial in federal court, I
could subpoena those records to prove the way I was denied due process to contest fabricated
and damning allegations at a meaningful time and in a meaningful way [ChildWelfare.gov]. Even
though Flanagan would likely say that is the Judge's fault, and you can't sue her, this circumstance
is nevertheless relevant to why the due process laws Matusko and Romm violated [7B-320-323]
were so essential to protecting me from further liberty deprivations. FL allowed Defendants to
dismiss my claims against them and would not allow me to sue the judges who also violated due
process, although perhaps they did so because DSS defendants had lied and misrepresented my
status and presented me in such a negative light.
Equally disturbing is that FL denied my attempt to sue Dare Co. Sheriff Doughtie [DE-19, Text
Order 11/22/17] who told me personally that he blocked the delivery of my legally served
subpoena for pediatrician records that clearly prove EJV was never harmed or sick while in my care
- something that NEVER got on the record because of the violations the Sheriff, DSS and the Court
and the Clerk of Court committed against me. The dialog at court hearings continued to assume,
22

without any supportive evidence, that EJV had been neglected. In my conversation with the
Sheriff, he told me that I could not have my subpoenaed documents delivered to the court, even
though the subpoena was lawfully served (by someone not a party over 18), because HE
personally had to be the only one to serve subpoenas, and he insisted that whoever I paid to serve
mine, give him the money. I did not tape record this phone call, however if I had been allowed my
right to trial or even to pursue my claim against Doughtie, I could have proved what he said to me,
unless Doughtie and the pediatrician lied under oath. The fact remains; the records I subpoenaed
never got on the Court record. I still do not understand why this claim was dismissed. I have
reported this violation to every court and none, including Doughtie, have denied it occurred. Note
that it took several Motions with N.C. Federal Court to correct its misconception that Doughtie had
served my subpoena, and I had just failed to pay him - not at all what I reported or what
happened. Doughtie, another government agent, violated my right to due process and harmed me
The day after DSS Currituck, with its petition verified by Defendant Hurd, accused me of
serious neglect, I learned from NC Statutes enacted exclusively and intentionally to protect those
who are in danger of RIL inclusion, that the law requires DSS director (in this case, Defendant
Room) and the Clerk of Court (both in ministerial duty) to comply with a specific set of laws
[Marsh,7B 320-323] so as not to deprive one of certain Const, rights that would affect employ­
ment or their right to adopt a child or other liberty interests. The NC Court of Appeals in WBM.
made clear that adding someone to the list without proper notification and a right to be heard in
regard to the allegation was Unconstitutional. Nevertheless, Romm failed to obey these due
process laws. She claims that she did, but Flanagan never required that she provide evidence to
support that claim, a courtesy she did not apply equally to me. NCGS [7B-320-323] states that I had
limited time to file a Petition for JR, which was separate from the Custody hearings and would
have provided me a supposedly fair opportunity to present evidence in support of my innocence.
So even though Romm failed to comply, to send me personal and proper notification and provide
me with instructions on how to file for Review, I filed a timely petition with the Clerk of Court's
office as required, without using a form Romm was supposed to furnish me but did not. Qualified
immunity does NOT protect Romm either from fraud or from failing to perform ministerial duties
mandated by NCGS 7B-320-323.This role has nothing to do with a decision, unless one is made
after first providing proper notification [Marsh, Taylor, DE-48-A, DE-102,18].
23

Likewise, Clerk of Court Matusko, who is legally required to, "upon receipt of the petition for
review," calendar a hearing date for that Review, NEVER DID SO. The result of his and Romm's
violations of Due Process have had a catastrophic effect on me and my family. These procedural
violations of my right to due process have led to EJV being forever removed from his family and his
mother, who loves him dearly, and placed with a couple, the male of which has a 20-year history
of DWI convictions - A man who just last February, while driving under whatever influence, drugs,
alcohol or VOCs, was reported by several news sources (Feb, 2020) to have just missed hitting a
group of pedestrians and run into a tree. He then, police reported, headed toward the highway
where he was stopped by officers. However, before the police reached his vehicle, he took off and
headed down the highway where he flipped his car after hitting a side barrier.
No evidence exists to show that I have ever been involved in or caused anything this
dangerous, and certainly everyone should understand how concerned I am. I now realize that DSS
either never did a background check before placing my grandson with Ralph Barlow or they didn't
care, so long as they justified their previous actions and got federal funds granted for adoptions.
Because I was denied my right to contest the serious, false and irrelevant allegations DSS
made against me, due to Foltz's, Romm's and Matusko's violations of my right to due process, I
was not informed that DSS had dropped the charge of serious neglect in October, 2013. So, over a
month later, Romm and her colluding agents -including my appointed attorney Harriss—coerced
me into signing a stipulation, which promised to remove the already dropped accusation of
serious neglect and to return EJV to his mother, promising to work with her to help with her needs
[DE-102, 20]. Because I knew JV needed my help and because I wanted EJV with me until she was
ready to take over, I knew that if DSS was able to get away with charging me with "serious
neglect," I would not see EJV, and I could also be criminally prosecuted.
After those threats and promise, which I NOW know were fake, DSS got its stipulation and
then succeeded in a motion to "remove me as a party," completely silencing me while I remained
the respondent in the case accused of neglect [PL's filed exhibit 40, Motion to Vacate Order on
Party Removal, is not listed in Federal Court Docket, but it and subsequent motions were denied or
ignored on the basis that PL was removed as a party!] I DID NOT KNOW until I filed this lawsuit in
Federal Court and received response to my interrogatories, that Matusko had not calendared my
Hearing for JR, he said, because his deputy clerk had been told by a DSS agent that Romm had
24

DROPPED THAT CHARGE. IF I HAD been told the truth in early October, does anyone think I would
have signed a stipulation on November 18 in order to get an already defunct charge dropped???
Because I was tricked and lied to, even by my own attorney, and Defendants committed fraud,
I signed a stipulation I knew was a lie, but only after my lying attorney assured me that I didn't
have to agree to all of it, adding that he would read parts I objected to during the hearing
presenting the stipulation [DE-147, 69]. Even after stipulation was signed, DSS agents continued to
accuse me in several report/orders of seriously neglecting EJV, and also continuing to accuse me of
failing to provide EJV "remedial care," or even advocate for treatment for JV!
When I later tried to adopt EJV, with JV's full consent, DSS attorney Hull, who aided DSS in its
unlawful words and deeds, cited in DSS' Motion to Dismiss my Petition for Adoption [DE-98, 8]
verbatim wording recorded in said stipulation and Foltz's original petition, now part of the official
adjudicated record. Not surprisingly, the same judge (Davis) who had unlawfully authorized the
magistrate to sign Foltz's order to take EJV from me, presided over DSS' hearing seeking dismissal
of my attempt to adopt EJV. Even though I filed a motion requesting Davis' recusal, after reviewing
said motion and argument, herself, Davis, in violation of standard protocol, unilaterally
determined that she was not biased. Davis completely ignored all evidence I presented showing
not only EJV's removal was wrong but also the stipulation. In response to my reference to her
participation in the initial unlawful ex parte hearing, in the absence of emergency and legitimate
status affidavit, Davis excused her participation as "local practice." She concluded that by then EJV
had already gotten accustomed to his new family, and it was time for these non-biological foster
parents to adopt, denying my and JV's right to ever see EJV again. Before I could file my appeal
brief, after filing timely notice of appeal, Dare County Clerk of Court Tolson secretly authorized the
adoption of EJV to the Barlows, one of which suffers alcohol and other addictions with a history of
reckless driving under influence- far more dangerous to himself and others than JV ever was or is.
DSS had also moved, successfully, to block my attempt to appeal the adjudication ruling that
EJV had been neglected after I filed a motion to object to the stipulation, which was never heard
because DSS had also successfully moved to remove me as a party to the case in which I remained
respondent, stifling my presentation of further evidence, including the report of my very positive
psychological evaluation based on a gold standard MMPI, which DSS refused to accept in favor of
kin placement, because I self-paid a licensed psychologist not under their control/influence.
25

ARGUMENTS - ERRORS RELATED TO QUESTIONS
Question 1 Is Troxel v Granville correctly applied to a case that has nothing to do with grandparents'
visitation requests, but is used, nevertheless, as grounds to deny a custodial, in loco parentis grandmother's
constitutional right of familial association?
Initial FL ORDER [DE-5], denies PL's claim to deprivation of liberty interest as EJV's
grandmother. However, FL's citation of Troxel is substantially misapplied in a way that prejudices
and dismisses much of PL's claims. Citing Troxel. FL asserts that PL has no Const, rights to her
grandson or association with him. By contrast, Hodge, which ORDER cites in regard to a different
argument, states that: "the sanctity of the family unit is a fundamental precept firmly ensconced in
the Constitution and shielded by the Due Process Clause of the Fourteenth Amendment."
Stanley v. Illinois expands the scope of protections related to this and another question later
discussed, regarding family decisions about health care choices, which were clearly violated by DSS
defendants in PL's case regarding familial privacy [see Cases), restricted to "...thwarting
governmental attempts to interfere with particularly intimate family decisions...."
A discussion about how government interference with a grandmother's parent-chosen
custody arrangement can also interfere with the (indisputably) protected parent-child relationship
is detailed elsewhere herein, but the point in PL's case is that the disabled mother needed
assistance, and DSS deprived her of the only relative available to help and even JV's right to live
with her mother in her own home where she kept her belongings.
ORDER ignores PL's argument that because JV had the sole right to choose who cared for her
child while she was recovering from injury and disability, and because JV chose that EJV be in PL's
custody and care, that PL had constitutionally protected rights as custodian and EJV's family
member, in addition to her right to be heard prior to a custody determination. Troxel plaintiffs did
not have rights equal to PL's, because they were not part of an intact family unit, and the mother
of Troxel's grandchildren chose differently than what they preferred. Even though the Troxels
didn't win their case, they still got to visit with their grandchildren. PL and JV cannot even see or
talk to EJV, see photos of him or send him gifts [NCGS 50-13.1(bl)1. This is cruelty. [Saint Louis]
Troxel does apply in one respect, stating that a parent has a fundamental right under the
Fourteenth Amendment, "to oversee the care, custody, and control of a child." Thus, JV had sole
26

right to choose who cared for her child, and DSS's severance of the relationship between EJV and
PL was a violation of PL's and JV's rights, supported by Wallis v. Spencer.
PL asserts that because JV, while hospitalized and later recovering from an additional
traumatic experience, put her child in PL's care and custody and because UCCJEA 205 (a), 28 U.S.
Code § 1738A (e) and N.C. state law explicitly mandate that the one with physical custody of a
child be given opportunity to be heard before a custody determination is made, the fact that that
person is the grandmother doesn't deprive her of constitutionally protected rights to custody of
EJV, seizing and placing him with strangers, in the absence of any emergency. Even in emergency
removals, the parent or custodian is allowed to be with the child until a hearing makes a non­
temporary custody determination [7B-501}. This did not happen in PL's case to EJV's detriment.
When PL, the rightful and physical custodian, was deprived of that federal and state right to
an opportunity to be heard, her constitutionally protected right as EJV's custodian was violated,
unless a lawfully held hearing had provided sufficient evidence that he was or would be harmed by
that arrangement. However, no such lawful hearing was held.
ORDER'S [p. 26] dismissal of numerous due process violations in this case outrageously
assumes that JV's "mental illness" was reason enough to have her child taken from his
grandmother, which is also a violation under ADA. Incredibly, ORDER also states that PL "does not
dispute that [JV] had a mental illness for which she was not receiving treatment...," an assertion
that grossly ignores evidence, including PL's affidavit testimony [DE -56, 45 (f); DE-108, 6] and also
contradicts one excuse Foltz uses to deem PL too "inappropriate" to be considered as a kin
placement for EJV; ie., Foltz alleges PL's disagreement with DSS over JV's diagnosis is grounds to
deny PL custody of EJV [DE-147, 53]. Foltz condemns PL for accepting medical expert diagnoses
that attributed JV's symptoms to a head injury she suffered—and Foltz gets away with this!
PL also argues that she has a constitutionally protected First Amendment right to free thought
and further right to adopt and have a relationship with her grandson, as noted in WBM. especially
considering that PL's effort to adopt EJV respects his mother's wishes.
With Magistrate Swank's recommendations in her Supplemental Memorandum [DE-10] and
her assertion that the 4th Circuit had not clearly settled the issue on grandmothers' rights, PL
contends that ORDER does not provide sufficient argument to deny PL's liberty rights as EJV's

27

grandmother. Swank states that "Indeed, the case law in this area is unsettled and there appears
to be no instructive Fourth Circuit opinion." (see Rees, Moore, Johnson. Rivera in Cited Cases).

CLARIFICATION OF LEGAL ISSUE
The majority of the remaining questions focus on scrutiny of liberty rights that Flanagan
allowed to go forward for review before she dismissed all of PL's claims and right to jury trial.
However, first an extremely relevant issue of proper procedure and authority of CPS in regard
to child removals must be clarified, because they are misrepresented or misunderstood
significantly by Flanagan's ORDER. For example, ORDER, p. 26 footnote, misapplies laws related to
petitions for child removal, claiming wrongly that 7B-502 "...gives the district court authority to
issue an order placing a child in nonsecure custody," failing to first note that Section 500 of NCGS
7B applies to cases where an emergency or threat to the child's well-being exists, and 502 applies
only when a child has already been taken into "temporary custody." This law doesn't apply in PL's
case [Screening Tools, 7B-503, DE-147, 53], because no emergency existed.
Because an emergency did not exist in PL's case, per Foltz's own admission (DE-63 -6], Foltz
had no right to even seek a nonsecure custody order [UNC SOG]. The law requires that she note
any concerns on a petition (and, by law, they should describe actual harm or risk to the child [see
7B definitions and NC DHHS Screening Tools]) and file her petition in the courthouse so that a
hearing could be set for all involved to be heard and decide what to do about anything that might
have been of concern [see childwelface.gov]. Because Foltz did not do her job properly or lawfully,
and her supervisor, Defendant Lycett, had to have approved it, they both, along with their
Director, Jay Burrus, are responsible for damages. Note the circumstances under which 7B-502 is
allowed in CITED LAWS. Such circumstances do not apply to Plaintiff's case [DE-3, 5, 6, 7]. Many
other laws make clear that no removals outside emergency are allowed without prior notice,
summons and hearing issued and allowed first [UCCJEA, 28 U.S. Code § 1738A (e) 7B-401-405].
Without notice and opportunity to be heard, relying solely on 7B-502, in the absence of an
emergency, is forbidden. The laws under section 400 (all provided as exhibits to the Court), clearly
define the procedural process to follow if a CPS worker has determined, supposedly relying on the
NC DHHS Manual guidelines and screening tools, neglect or risk of harm that doesn't reach the
level of emergency. This decision to file or not file a petition is discretionary. However the way it is
28

filed is not—it is clearly laid out by law, which rightly allows the parent/s or custodian of the child
an opportunity for hearing on the allegations, without causing certain serious trauma to a child
due to unnecessary separation. The allegations should be very precise and accurate in their
description of what exactly the child is suffering or is likely to suffer without intervention and
identify who is harming him/her. Without such allegations that comply, at minimum, with the legal
definitions of abuse, neglect or dependency (A/N/D), elaborated upon by the NC State
Department of Health and Human Services Screening Tools, the agency does not have legal
grounds to be involuntarily involved in the family's privacy and child rearing - at all! The
importance of the clearly-defined legal procedure is so that the certain trauma of a child
separation can be avoided unless a hearing reveals evidence that intervention is required in order
to protect the child from neglect. NC statutes under 7B, section 400, were enacted to ensure due
process and that children and parent/custodians' rights are constitutionally protected. The
introduction to the NC Juvenile Code, NCGS 7B - clearly says so [7B-100]. Its purpose is "To provide
procedures for the hearing of juvenile cases that assure fairness and equity and that protect the
constitutional rights of juveniles and parents. [Child Welfare.gov, NCGS 7B-401-407. UCGEA 102].
Weller and Wallis, cited by ORDER to justify dismissal of PL's other claims, instead, clearly
support the laws requiring notice and chance to be heard prior to a child's removal, and, in the
case of an emergency, soon after removal [see Weller in Cited Cases].
While Weller refers to the rights of parents, rather than grandparents, Plaintiff has provided
all courts sufficient evidence to show she had sole physical custody of EJV, with his mother's
direction and consent, on the day Foltz kidnapped him, and the relevant laws clearly require
opportunity for the person with physical custody to be heard prior to a custody determination.
It is further relevant, as noted elsewhere herein, that Foltz did fraudulently misinform the
court of the very crucial issue of PL's status as EJV's custodian.
ORDER'S misapplication of the cited case of Ross is also at issue because Ross involves
removal of foster children who were already legally in DSS custody. This was not about a new
custody determination; therefore, this case is misapplied to Plaintiff's. Also notably important, is
that Ross's own child was not removed, even after a former foster child of hers alleged that Ross
had neglected watching the children at the pool, allegedly resulting in one nearly drowning.

29

Question 2: Should violations of state statutes that mirror federal laws and were specifically enacted to
protect U.S. Constitutional Due Process rights be dismissed, just because they involve state laws?
ORDER [p 32] discounts serious due process violations Defendant Matusko committed against
PL by erroneously stating that "state regulations do not provide basis for a due process violation."
Here, ORDER'S omission of one commanding word is deceptively and substantially misleading.
ORDER cites Riccio for support of its conclusion, when Riccio does not fully support it, stating that
"It is well established that the mere existence of a state rule does not necessarily create an
interest protectable by the Due Process Clause.... [emphasis added]. Furthermore, Riccio does not
involve a state statute violation in the first place, so the presiding court "...never had to decide
what constitutional effect [it] would have given to a finding that the statute had been violated."
In his response to PL's Interrogatories [DE-147, 55], Currituck Clerk Matusko admits he did not
calendar a hearing date, as law requires [7B-323 (b), ever, after PL filed her Petition for Judicial
Review in order to contest charges of "serious neglect" that Currituck DSS agent Hurd falsely
alleged in her petition filed in Sept, 2013 [DE-98, 7]. Lower Court acknowledged that this duty is
ministerial, not quasi-judicial. Matusko confirms that PL's Petition for JR was timely filed.
Despite the significance of Matusko's crucial role in the unconstitutional and tragic outcome
of this case, ORDER unfairly dismisses PL's claim against Matusko by basically saying, "so what!"
ORDER (p. 14) grants Matusko's request for dismissal based on PL's alleged "failure to state a
claim." On the contrary, PL rightly claimed that Matusko deprived her of Due Process when he
violated a state statute, enacted specifically to protect her constitutionally protected right to at
least notice and hearing, as did Defendant Romm [DE-147, 58]. Hurd and Harris, who also denied
PL right to proper notice and Harris' improper status affidavit [DE-48-D] have been noted above. In
dismissing PL's claims, ORDER implies, citing Riccio, that the law Matusko violated [7B-323 (b)]
provides more protection than what federal Const, laws do! This makes no sense. Violation of due
process tramples upon a Const, right - a meaningful opportunity to be heard at a meaningful time
and know the basis of the accusations before a state deprives one of a liberty interest [Napue].
Comparison of the violated statutes NCGS 7B-320-323 with widely recognized Constitutional
elements of Due Process protections, shows that the state statutes in question do NOT, in fact,
"grant any more procedural rights than the Constitution would otherwise require." The very
reason these statutes were enacted [WBM], was to correct Constitutional violations existing in
30

state procedure prior to 2010. Provided below is a list presented by Judge Henry J. Friendly in his
lecture delivered to University of Pennsylvania Law School in 1975. Friendly describes the list as:
"... enumerating factors that have been considered to be elements of a fair hearing, roughly in order of
priority... ["Other Authorities"]. Friendly's list of fair-hearing elements include:
•
•

•
•
•

An unbiased tribunal
Notice of the Proposed Action and the Grounds Asserted for It - It is likewise fundamental that
notice be given and that it timely and clearly inform the individual of the proposed action and the
grounds for it. Otherwise, the individual likely would be unable to marshal evidence and prepare his
case so as to benefit from any hearing that was provided.
An Opportunity to Present Reasons Why the Proposed Action Should Not Be Taken
The Rights to Call Witnesses, To Know the Evidence Against One, and To Have Decision Based Only
on the Evidence Presented
Judicial Review

A reading of NCGS 7B-320-323. shows that these statutes are all about due process and grant
what the Const. Due Process Clause requires. The problem is not the statutes. The problem is that
actors in Child neglect cases routinely ignore them because they are rarely held accountable when
they don't comply. Currituck DSS Defendants' failure to provide PL any notice of hearing or
grounds for new allegations on their Petition naming PL as respondent, their refusal to speak to or
meet with PL before accusing her of serious neglect AND their filing of their own misleading childstatus affidavit, which again hid from the court PL's status as sole custodian of EJV the day he was
kidnapped, also amount to violations of due process, some of which are committed in ministerial
roles, not discretionary roles [Marsh, Congressional Research Service].
Another reason NCGS' 7B-320 section was added is because elevating charges against a
respondent in a child custody case from simple neglect to serious neglect or abuse, results in
increased seriousness of consequences faced—elevation from civil to criminal charges and
inclusion on an RIL ensuring further deprivation and defamation of reputation. That is why the
normally mandated hearing procedure - which Dare and Currituck County Courts don't comply
with anyway - does not provide sufficient due process protection for one accused of a criminal
offense with the outcome of not only depriving a family member of association with a beloved
child, but also depriving one who fails to prevail upon Judicial Review the right to work with or
adopt children. The accused also faces criminal penalty, including further deprivation of liberties.
For these reasons, the NC Laws that Mutusko and Romm violated under 7B 320-323 do not

31

exceed Constitutional Due Process protections, and defendants' intentional violations of these
laws were substantially and directly responsible for deprivation of PL's liberty and property rights.
At the very least, Sections (c), 1 and 2 of 7B-320 requiring the Director to provide notice and
summary of the grounds for Director's determination of serious.neglect or abuse, are basic Due
Process Clause protections, precisely included in the list above. Nevertheless, Romm did not
comply with ANY of the sections, although she claims otherwise in her response, via her attorney,
which, by the way, SHE DOES NOT SIGN OR SWEAR TO HERSELF! [DE-147, 58]. Had she and
Matusko done just what basic Const. Due Process requires, especially considering the threat of
criminal prosecution, that would have been sufficient. But again, they did nothing mandated, and
then Romm, unless Matusko or his deputy clerk are lying, dropped the charge, without informing
PL of this decision! —nor did Matusko, both of whom owed PL that information in Oct, 2013.
NCGS 7B-323 states, in relevant part, that if a director decides not to pursue a charge of
serious neglect or abuse, she must personally or by mail notify the accused and then:
The director shall also give written notice of the director's determination to the clerk to be placed in
the court file, and the judicial review hearing shall be cancelled with notice of the cancellation given
by the clerk to the petitioner [emphasis added].
Therefore, Matusko can't claim that he wasn't required to calendar PL's petition just because
Romm or her representative allegedly told his clerk that she had dropped the charge, because
Matusko's compliance with law would have obligated Romm to then review her evidence and
openly make a final decision whether or not to pursue the charge. Once Matusko got notice from
Romm that the whole thing was off, then, both HE and Romm were required to inform PLAINTIFF.
They did NOT, nor can either provide any evidence to show that they did. Matusko, apparently
more honest than Romm, doesn't claim he did. Nevertheless, ORDER does not give this serious
case of fraud perpetrated against PL the slightest attention of concern. ORDER instead rules that
gov't agents' violations that seriously harmed PL, don't matter, wrongly classifying them as
excessive state protections of PL's rights, "above and beyond what Federal protections provide "!
A timely notification to PL that Romm had dropped the charge of serious neglect would have
prohibited its use as a threat to coerce PL into signing what resulted in a fraudulent, damaging
stipulation! Under the circumstances, ORDER'S [p 13], implication that PL's characterization of
said stipulation as fraudulent amounts to "assumption and conjecture," ignores the strong,
tangible evidence PL provided the Court in her Response [DE-147] and other exhibits.

Without that stipulation, DSS would have had to prove what they could not, via adjudication,
that EJV had been neglected, without DSS having any facts to support such conclusion. And, in that
case, DSS would have been charged court costs and lost funds from Social Security and CAPTA they
had fraudulently acquired when they harmfully placed EJV with strangers. After DSS seized him,
EJV would not even drink his bottle for some time; he lost weight, and it was within about two
months of his placement in foster care that he was hospitalized with pneumonia.
Had Matusko calendared a hearing, several protections on Friendly's list would have been
fulfilled, and this nightmare for PL, JV and EJV would have ended in 2013, because Romm did not
have any evidence to support the only allegation on the petition that amounts to child neglect failing to provide "remedial care" to a child who'd been well and unharmed while in PL's custody.
Without that charge, DSS didn't have any claim to a case at all, which explains why Romm hid the
truth from PL and apparently also the Courts, continuing the farcical "prosecution" of PL.
For ORDER [p. 31 bottom] to characterize such Constitutionally protective statutes as merely
"state regulations," is beyond misleading and unfair [Justia]. Further prejudicial to PL is ORDER'S
assertion on p.12 that PL simply "alleges" she was coerced into signing the stipulation, without
ORDER disclosing or even addressing the overwhelming evidence presented, establishing that the
terms of that stipulation, by November 18, 2013, were moot. Disregarding this evidence, Flanagan
ruled as if none of the facts matter. ORDER incredulously states only that "the parties entered into
a stipulation in which it was agreed that DSS would not move forward on the allegation of serious
neglect...," flagrantly dismissing, refusing to even acknowledge Matusko's testimony supporting
PL's claim of fraud and coercion connected to said stipulation.
One may question how much of a threat, really, is inclusion on the RIL? North Carolina Court
of Appeals, commenting in WBM. provides a clear and sober description of the extremely serious
outcomes that PL had been assured she could face, in addition to criminal prosecution, if she
refused to stipulate [full quote in CITED LAWS], "The injury is real, immediate, and incalculable" [WBM].
It seems FL decided that being branded as a child-neglector doesn't amount to any injury at
all, even if it deprives the one branded of ever seeing their grandson again. Even though Judge
Friendly's list of Due Process rights ranks JR a last priority, nevertheless, he includes JR as a Const.
Due Process right. There are more specific, and federally mandated, reasons for this:
1.

Federal law under Child Abuse Prevention and Treatment Act (CAPTA) demands it, according to North
Carolina Division of Social Services (P ex 47) [see Authorities for full quote].
33

"The CAPTA grant requires each state to establish procedures for individuals found to have
abused or neglected a juvenile to appeal that decision. Non-compliance with this requirement
directly impacts the receipt of CAPTA funds" [emphasis added].
2. According to CAPTA, "Individuals must be given written notification of their right to appeal, and the
method by which they may appeal, at the time they are notified of the official finding of child abuse or
neglect."
3.

However, NC state law, under 7-B 1002, does not allow all accused of child neglect right of adjudication
appeal. DSS' failure to disclose PL's status as EJV's custodian deprived PL of right of appeal. Therefore,
compliance with 7B 320-323 was PL's only avenue to appeal and for DSS to comply with CAPTA.
Because DSS not only did not inform PL of her right to Judicial Review and the rest of the

notification requirements when Currituck DSS agents designated her as a Responsible Individual,
and it did not provide written notification to PL of her right to appeal once the fraudulently
acquired stipulation was adjudicated, DSS likely accepted CAPTA funds it is not entitled to.
Romm, after falsely claiming she properly notified PL [DE-147, 58], audaciously implies PL has
no reason to complain because the stipulation removed the serious neglect allegation! Either
Matusko's source lied, or Romm did. A jury trial could have settled this. To be clear, in his
response to PL's interrogatories [DE-147, -55 pp 2,3], Matusko "...admits that the plaintiff filed a
Petition for Judicial Review...in his office on October 7, 2013 in Currituck." He adds that when his
"...Junior Deputy Clerk received the plaintiff's petition for judicial review, she clocked it in...and later
filed it. Upon information and belief, the Junior Deputy Clerk then called Currituck DSS to inquire about
the Plaintiff's petition for judicial review and asked if the plaintiff's petition needed to be calendared
for hearing under N.C.G.S. 7B 323 (b). Upon information and belief, DSS told the Junior Deputy Clerk
that DSS was not going to go forward on the allegation to place the plaintiff on the Responsible
Individual's List so they did not give her the Form AOC-J-131.
If, in fact, Currituck DSS, "did not give" PL "the form," as Matusko testifies, it means Romm
could not possibly have complied with 7B-320, because that law requires giving PL the form and a
lot more that PL was never given [DE-98,13]. NCGS 7B-320 (d) states that "In addition to the
notice, the director shall provide the individual with a copy of a petition for Judicial Review form."
NCGS 7B-320 gives DSS director 15 days to provide proper notification to one accused of serious
neglect. That 15 days expired at least by October 4, 2013. As PL notes in her Nov. 27, 2018
Supplemental Response to ...Motions for Summary Judgment [DE-147, 6]:
"The law effective October 1, 2013, explicitly states that the director must 'show' that she has either
provided the person that she identifies as an Rl notification as required by 7B-320 or else show that
34

she tried her best to 'find' that person." Without providing this proof, Romm had no authority to
either place Plaintiff on the RIL or use the threat of RIL placement as a stipulation condition.

QUESTION 3. Is it unconstitutional to limit liberty deprivations caused by harm to a person's reputation
only to deprivations that are employment-related?
PL's previous arguments answer this, with the citations from WBM. noting that more than
employment deprivation is involved when an individual is branded with child neglect. But ORDER,
p 31 cites Bollow. to support a ruling that employment loss due to defamation of character is all
that matters. Bollow is about a bank attorney, fired for "inability to 'get along' with co-workers,
which in no way equals charges of serious child neglect or abuse of a disabled adult, stated against
PL. ORDER admits, through Valmonte, that branding someone as a child abuser, "certainly calls
into question her good name, reputation, honor or integrity," In other words, this rises to the level
described in Bollow as "accusations of "moral turpitude." Although two of ORDER'S cited cases
imply that employment is the only deprivation that matters, the fact is, loss of employment is the
subject of Bollow. Although Valmonte also refers to "dissemination" of RIL inclusion to potential
employers as being the "precise conduct that gives rise to stigmatization," this statement omits
evidence, provided by WBM. proving that this type of branding affects not only employment but
also one's ability to have custodial relationships with children, including adopting or having
custody of one's own grandchild [Rees].
In fact, having allegations of child neglect readily accessible to the very DSS agents who
created them, to use as justification to block an accused from adopting, is exactly how PL was
deprived of the liberty interests noted in WBM.
Question 4. When government agents; through false allegations, along with due process and other
violations, damage a citizen's reputation and then, themselves, use the court-recorded defamations they
create to further deprive that person of constitutionally protected liberties, should they be exempt from
liability just because they didn't widely publicize the stigmatizing records they created?
Plaintiff has established that laws regarding Foltz's failure to follow procedural due process in
seeking an ex parte nonsecure custody order, are identical to federal and state due process laws,
(UCCJEA, NCGS 7B and NCGS 50A cited together in LAW section of Cited Authorities). To reiterate,
following these laws does not involve discretion; therefore, agents who violate these procedures
are not protected from liability, especially when they also commit fraud. PL has also shown [see
discussion under compelling reasons #7] that defamation of her reputation, now permanently on
35

record due to DSS Defendants' fraud and other violations, were used to further deprive PL of
rightful association with EJV, despite the fact that Defendants did not allegedly publicize them
outside of court records. PL also notes that Flanagan HAS publicized some of them, citing
unproven allegations, as if legitimate, without exposing the extensive evidence supporting PL's
claims of fraud, such as Matusko's testimony.
As a result of Foltz's violations, the fabricated evidence and lies stated in her petition became
part of the final court records, and ORDER'S claim that PL did not dispute these allegations, is
entirely and egregiously wrong [DE-147-Affidavit, 56, Response DE-108 and Supplemental
Response DE--147]. Plaintiff asserts that because Foltz failed to comply with clearly established
laws set in place to protect liberty rights, her unlawful actions directly led to extreme pain and
deprivation to Plaintiff and her family. The same is true of Currituck DSS Defendants' actions.
Defendants Lycett and Burrus, Foltz's supervisor and Dare County DSS Director are likewise
responsible, as agency regulations require that they approve subordinates' actions. PL's exhibit 19
[DE-147], under the heading "Decision" states that "...whether the report should be accepted for
CPS Assessment....is a joint decision made with the CPS Intake social worker and the supervisor."
Although that decision is discretionary, it must not be based on lies and must meet A/N/D
definitions. NCDHHS Intake Manual (2013) [DE-147, 24] regulations provide proof that DSS
Directors are responsible when their agency initiates involuntary intervention in absence of
allegations that meet legal definitions of A/N/D. Also included are NCDHHS Screening Tools
defining what is and is not neglect. Comparison of these criteria with Foltz's and Hurd's allegations
shows that nothing stated, even if true, (besides Hurd's fabricated allegation of not providing
"remedial care," quickly dropped) amounts to A/N or D. Adding the fact that Foltz sought
nonsecure custody without the required emergency, supports PL's assertion that DSS never
established Subject Matter Jurisdiction or right to agency involvement. To be specific, Foltz's claim
that PL didn't seek a pediatrician visit until Foltz got involved is disputed by her own testimony on
Sept 23, 2013, during the FOURTH post-deprivation hearing, when Foltz admits she knew that,
before ever meeting PL, JV had set an appointment on an unavailable day and that PL had called to
briefly postpone it [DE-48 ex K, App extra, DE-147, 52], regarding well-visit recommendations].
Clearly lying, Foltz claimed PL had not helped JV get treatment, despite PL's email communication
with Foltz referring to the TBI appointment PL had set up. [DE-98, ex 4, p2]. In same email PL
36

refers to doing extra freelance writing to pay for it. Foltz's allegation that PL was "adamantly
opposed to vaccines/' is another lie. EJV's pediatrician accepted alternate vaccine schedules as JV
and PL requested, and JV, under oath, denounced DSS allegation that PL had "bruised" her, which
Foltz arid Ryder apparently allegedly got JV to say while she was in hospital, heavily drugged,
bringing into questions their ethics more so than PL's. Adding to all of this is the allegation that PL
refused to agree with a diagnosis DSS chose to believe regarding JV's condition, as if that and the
other nonsense Foltz states has anything to do with child neglect on PL's part. Furthermore, the
NC DHHS screening tools on neglect and risk show none of DSS allegations meet grounds for
concluding child neglect, much less support child removal [NCDHHS Manual Screening Tools, DE102,19]. Additionally, lying on a petition, voids Qualified Immunity [Hardwick, Hopei.
Question 5: Is procuring an order, alone, sufficient authority for social workers to invade an individual's
privacy if the order fails to meet the first requirement of the Fourth Amendment protection, i.e. the right to
protection against unreasonable searches and seizures?"
ORDER'S assertion [p 23] that PL "failed to rebut the presumption" that Ryder's court order
"was supported by probable cause," is blatantly false. Number 41 on PL's Affidavit (DE-147, 56],
clearly explains why PL deemed Ryder's Order to be fraudulently procured, because JV did in fact
speak to Ryder [DE-108, 2,4], and Ryder had no authority to demand JV to do anything. PL's said
Affidavit also cites laws limiting APS authority only to assist disabled adults who don't have "willing
persons to perform or obtain for ...essential services," also prohibiting APS intrusion where the
disabled adult rejects assistance. [NCGS 108A-101 (e), 108A-104], Again, these laws apply when
there's no emergency, and DSS APS Defendants confirm in their Affidavits [DE-63,1-7] that no
emergency ever existed, with Corprew, Ryder's supervisor, confirming this in Ryder's situation. PL
understands why Ryder might have questioned the meaning of JV's note, but Ryder didn't consult
with PL, as law instructs, and if she had, PL would have informed her of JV's upcoming and
important appointment and why JV was afraid to talk to Ryder. Nevertheless, Ryder had no right
to persist or take the drastic, demeaning, traumatizing and subsequent action that simply
terrorized JV and exacerbated her fragile condition, related to PTSD, caused partly by previous DSS
encounters. Ryder certainly had no right to search PL's cabinets [Groh].
Regarding Turnage's 2015 harassment involving police misconduct she initiated, had Turnage
given PL a call, PL would have provided Turnage copy of the letter from CorePsyche [DE-108,11],
37

showing that her target that day was under a doctor's care. The adverse effect on this and other
traumatic and unwarranted attacks on JV have been catastrophic and have caused PL and JV both
lingering PTSD, along with the loss of their home -another devastating loss. As a person once
disabled by toxic job exposures, that home and location was a health necessity for PL.
Regarding Turnage - and McCarron, who was responsible for Turnage's actions - again these
APS agents' actions are limited by laws, and agents admit no emergency existed. Furthermore,
PL's letter to McCarron and Lycett (then DSS Director) cited the legal restrictions to their authority
in non-emergency situations and offered alternatives. Their response was to have police break
down the door where PL was renting to again harass JV, despite law regarding IVC's in NC at the
time and the McCray ruling, restricting such action to emergencies fNCGS 122C-268 (ill.
Both PL and JV were, in every instance related to this case, entitled to notice and hearing
before any seizures or invasions took place. Because of legal requirements, PL knew grounds to
involuntarily commit JV did not exist. No danger was involved. However, If DSS had worked with PL to get
proper and benign treatment that JV consented to, PL would have welcomed their assistance, as PL's letter
to Defendants Lycett and McCarron proves [DE-108, 8]. DSS defendants indicated repeatedly that they
weren't interested in helping JV get TBI evaluation and treatment. All of their actions showed only intent to
take away her rights, stigmatizing and force-drugging her and controlling her life, which is a form of
disabled adult abuse they were never held accountable for, because the immunity card is played by courts,
no matter what. Individuals who are injured and traumatized as much as JV has been, are not emotionally
able to fight back against this abuse on their own. Yet, advocates are few.
None of the traumatizing and unnecessary actions APS Agents took seeking orders to invade
Plaintiff's home and private family decisions were constitutional, under the Fourth Amendment,
which requires that those seeking entry must not just have an order in hand, but they must also,
and more importantly so, not violate "the right of the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches and seizures..." PL reiterates that none of the
searches and seizures DSS Defendants were involved in, were reasonable, because no emergency
ever existed [NCGS 122C-268(j), Groh], PL was responsibly and respectfully advocating for non­
traumatizing care for JV and working to pay for it as well (DE 98, 4].
QUESTION 6. Should immunity protections extend to social services agents whenever they fabricate
evidence and/or violate procedural due process and other clearly established state and federal laws
enacted to protect constitutional rights—even when performing ministerial duties?
38

The 9th Circuit Court of Appeals says, adamantly, NO! [Hardwick], Immunity protections should
be reserved for government agents who, in handling emergencies, honestly do their best to
comply with laws; they aren't for those who fabricate evidence and commit fraud and due process
violations that cause the kind of seriously damaging deprivation that PL, EJV and JV continue to
endure, also putting EJV in a risky adoption. Furthermore, Foltz's misleading of PL's status on her
affidavit, was not a discretionary role, nor was the unlawful way she chose to file her petition.
Foltz's only discretionary role was her decision whether or not to initiate and file a petition, not
how she filed it or how she defiled an Affidavit form that a child could have completed accurately.
The same holds true for Currituck DSS defendants, including Romm. Her responsibility to
properly notify PL in compliance with 7B-320-323, was not discretionary, nor was Matusko's
responsibility to calendar a hearing date. These are clearly mandated ministerial requirements.
QUESTIONS 7 & 8: 7. Should a sheriff who unlawfully interferes with the delivery of legally subpoenaed
documents be blanketly protected from a civil rights lawsuit? 8. Should police officers who forcibly enter a
home, without any semblance of a warrant or order, be protected from liability just because Plaintiff was
unable to initially procure the officers' names, using Officer Doe 1, etc, in the initial filing?
Plaintiff finds no justification for ORDER'S dismissal of PL claims against those violating her in
such abominable ways, including as described herein and on ORDER [p. 10]. Furthermore, ORDER
p 27, regarding the March 4, 2015 incident, states erroneously that "PL does not dispute that [JV]
was removed pursuant to a court order...." PL and the facts do indeed dispute this. There was no
court order that day, not even an unreasonable one. Turnage, admitting in her affidavit [DE-63, 7]
that no emergency ever existed, had no right under law to force JV to speak to her or bring police
officers, harassing PL and JV [NCGS 108A-104]. This inexcusable incident terrorized JV and PL
Flanagan's ORDER here is blatantly wrong, including the conclusion about Turnage's liability.
Regarding police officers' 4th Amendment violations, PL did try, despite ORDER'S misstatement, to
discover officers' names but faced roadblocks, which caused unavoidable delay [DE-142].
OTHER ERRORS
PL lacks space to address numerous other factual errors included in ORDER. With permission from
this Supreme Court, she will address these, as they add to her claims of unfairness and bias. For
one example, Flanagan gave Defendants special opportunity to provide additional supporting

39

evidence for affidavit claims [DE-157], not offering PL the same opportunity. ORDER [p 13], then
characterizes PL's undisputed and well-documented evidence as "assumption and conjecture.!"

CONCLUSION
How hard would it have been: to help PL get JV to her Richmond appointment? —to file a
proper Status Affidavit? —for Foltz to file a Petition in the courthouse to allow hearing and correct
her Status Affidavit, when asked?—to let PL explain?—to inform PL what DSS concerns were and
what it expected before kidnapping her grandson?—for Romm to comply with 7B-320-323?—for
Matusko to calendar a hearing date?—for DSS to simply talk to doctors PL consulted and read their
reports?—for all DSS agents to obey laws that govern how they do their jobs and limit authority?
Plaintiff reiterates that she and her family have suffered severe deprivations resulting from
Defendants intentionally violating her protected Constitutional liberty rights that lower courts
refused to acknowledge or grant any semblance of justice for—for what can be described as years
of harassment and cruel punishment by Dare and Currituck DSS agents, joining with others in a
way that has destroyed PL's family, JV, and put EJV in the hands of a reckless man. Plaintiff is not
perfect, but she has done nothing to warrant this abuse.
Therefore, Plaintiff respectfully prays this Court for just relief—compensation and any other
relief the Court deems appropriate—as it has not been granted otherwise, and because the
current unfair, destructive practices of CPS and APS workers are desperately in need of reform.
Plaintiff prays that it doesn't take such extremes as a prisoner being tied to a hitching post or
another put in cells full of feces or a judge's sexual assaults to move this Court to disallow
immunity to government agents who commit, under color of law, other atrocities such as
terrorizing a family, and, most egregious, kidnapping and keeping a child from his mother and
grandmother through use of lies, fraud, coercion and other violations of due process [Hope,
Tavlorl.
Respectfully submitted, this, the 26th day of February, 2021
And Resubmitted, as Revised Petition, this the 15th day of April, 2021

Susan W
613 Fifth Ave
Greensboro, NC 27405
wellsvaughan(5)gmail.com

40

